App. 1
16CA1250 Peo v Carbutt 12-27-2018 modified
COLORADO COURT
OF APPEALS

DATE FILED: January 24, 2019
CASE NUMBER: 2016CA1250

Court of Appeals No. 16CA1250
Conejos County District Court No. 15CR49
Honorable Michael A. Gonzales, Judge
The People of the State of Colorado,
Plaintiff-Appellee,
v.
Oliver Ray Carbutt,
Defendant-Appellant.
ORDER AFFIRMED
Division II
Opinion by JUDGE TOW
Dunn, J., concurs
Carparelli*, J., specially concurs
Opinion Modified and
Petition for Rehearing DENIED
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced December 27, 2018
Philip J. Weiser, Attorney General, Brian M. Lanni, Assistant Attorney General, Denver, Colorado, for PlaintiffAppellee

* Sitting by assignment of the Chief Justice under provisions
of Colo. Const. art. VI, § 5(3), and § 24-51-1105, C.R.S. 2018.

App. 2
Kelly C. Cherry, Joseph Saint-Veltri, Denver, Colorado,
for Defendant-Appellant
OPINION is modified as follows:
Page 1, the first sentence of ¶ 1 currently reads:
Defendant, Oliver Ray Carbutt, appeals the postconviction court’s order denying his Crim. P. 35(c)
motions seeking to withdraw his plea agreement.
Opinion now reads:
Defendant, Oliver Ray Carbutt, appeals the postconviction court’s order denying his Crim. P. 35(c)
motions seeking to withdraw his plea.
¶ 1 Defendant, Oliver Ray Carbutt, appeals the postconviction court’s order denying his Crim. P. 35(c) motions seeking to withdraw his plea. We affirm.
I.

Background

¶ 2 In 2015, in exchange for the dismissal of other
charges, Carbutt pleaded guilty to sexual assault on a
child. The trial court sentenced him to the custody of
the Department of Corrections for an indeterminate
sentence of fifteen years to life imprisonment. Carbutt
then filed postconviction motions seeking to withdraw
his plea, or, in the alternative, reduce or vacate his sentence.
¶ 3 In his postconviction motions, Carbutt contended
that his guilty plea was not knowing, voluntary, or intelligent because he was not properly advised of the
full range of possible sentences he faced. He also

App. 3
alleged that the trial court compelled him to incriminate himself by ordering him to participate in a
presentence investigation without an advisement that
he could invoke his right to remain silent during the
investigation. And, Carbutt argued that the trial court
erred by imposing a sentence of fifteen years to life.
¶ 4 The postconviction court concluded that Carbutt’s
sentence was illegal because it fell outside the statutory range for class 4 felony sex offenses and imposed
a modified sentence of twelve years to life. The postconviction court dismissed Carbutt’s remaining contentions.
II.

Standard of Review and Applicable Law

¶ 5 A challenge to a conviction based on a guilty plea
is generally limited to whether the plea was knowing,
voluntary, and intelligent. Sanchez-Martinez v. People,
250 P.3d 1248, 1255 (Colo. 2011). Whether a guilty plea
is knowing, voluntary, and intelligent is a mixed question of law and fact. Id. at 1254. We review questions
of law de novo and defer to a trial court’s findings of
fact, unless they are so clearly erroneous as to find no
support in the record. Id.
¶ 6 Prior to accepting a guilty plea, the trial court
must advise the defendant of the direct consequences
of the plea. People v. Corral, 174 P.3d 837, 839 (Colo.
App. 2007); see Crim. P. 11. As relevant here, the trial
court must ensure that a defendant understands (1)
the full range of possible sentences, including mitigating and aggravating ranges; and (2) the constitutional

App. 4
rights waived by pleading. Crim. P. 11(b)(4); People v.
Hodge, 205 P.3d 481, 484 (Colo. App. 2008). When determining whether a defendant was adequately advised regarding the consequences of a guilty plea, we
review the record as a whole. People v. Chavez, 7 P.3d
1047, 1051 (Colo. App. 1999).
III.

Indeterminate Sentence

¶ 7 Carbutt first contends that the trial court failed
to advise him that the Colorado Sex Offender Lifetime
Supervision Act of 1998 (SOLSA), § 18-1.3-1004, C.R.S.
2018, required the court to impose an indeterminate
sentence. Thus, he alleges that his guilty plea was not
knowing, voluntary, or intelligent. We disagree.
A.

Applicable Facts

¶ 8 Carbutt pleaded guilty to sexual assault on a
child. Prior to his providency hearing, Carbutt’s counsel inaccurately advised him that this charge was a
class 4 felony crime of violence. During the hearing, the
trial court clarified that, as charged in this case, sexual
assault on a child is not a crime of violence; consequently, Carbutt’s sentence was not subject to the
crime of violence sentence enhancement. In response,
Carbutt’s counsel stated that this was “better news” for
Carbutt. The trial court then explained that in some
respect “it’s better” but pleading to sexual assault on a
child ultimately “subjects [Carbutt] to indeterminate
sentencing.” The trial court then explained that pleading to a “sex-related offense . . . requires the [c]ourt to

App. 5
impose an indeterminate sentence pursuant to C.R.S.
18-1.3-10[0]4.” The following exchange occurred:
[The Court]: And what that means is, essentially, you could be facing an indeterminate
sentence in the Department of Corrections if
the Court imposes Department of Corrections,
or you could be facing an indeterminate sentence on probation if the Court were to place
you on probation. And how that would be is, it
appears that the Court would be required – if
I placed you in the Department of Corrections,
the Court would be required to impose at least
the minimum of the presumptive range all the
way up to life in prison. So what “indeterminate sentence” means is life in prison. So, in
other words, if the Court were to impose a sentence under this sentencing scheme, it would
be from two to six years would be the minimum that I could impose. The maximum that
you could receive would be life, or an indeterminate sentence in the Department of Corrections. Do you understand that?
[Carbutt]: Understand.
[The Court]:
cause –

That’s very significant, be-

[Carbutt]: He explained that to me.
[The Court]: Your attorney explained that to
you, and I expect him to go through that in
detail. And I want to make sure you understand from my perspective that this is essentially as serious a plea as I will take.
Because if you face incarceration, you could

App. 6
be incarcerated for the remainder of your natural life. Do you understand that?
[Carbutt]: I understand.
¶ 9 Later in the hearing, the trial court twice more
explained to Carbutt that if he were sentenced to
prison, “the minimum that [the court] could impose
would be anywhere from two to six years in the presumptive range, all the way up to your – the remainder
of your natural lifetime.” Carbutt again responded that
he understood.
¶ 10 Prior to the providency hearing, Carbutt reviewed
his written Rule 11 advisement with his defense counsel. Included in the paperwork was a paragraph initialed by Carbutt acknowledging that he was pleading
guilty to a sexual offense, and that he had reviewed
the “attached documents” detailing the elements of
the charge and the potential penalties of the offense.
Although the elements of sexual assault on a child
were attached, there was no attachment explaining the
penalties associated with the offense. The written Rule
11 advisement makes no mention of a possible indeterminate sentence, nor does it state that if the trial court
were to elect to impose a prison sentence, it would be a
mandatory indeterminate one. Indeed, the written advisement only provides a chart of the presumptive
ranges and mandatory periods of parole generally applicable to felony offenses.

App. 7
B.

Applicable Law and Analysis

¶ 11 As pertinent here, SOLSA’s sentencing provisions govern the sentencing ranges for a conviction
of sexual assault on a child. § 18-1.3-1003(5)(a)(IV),
C.R.S. 2018. All convictions to which SOLSA applies
must include a maximum sentence equal to the remainder of the offender’s natural life. See § 18-1.31004(1)(a) (“[T]he district court having jurisdiction
shall sentence a sex offender to the custody of the department for an indeterminate term of at least the
minimum of the presumptive range specified in section
18-1.3-401 for the level of offense committed and a
maximum of the sex offender’s natural life.”); see also
§ 18-1.3-1004(2)(a) (“The district court . . . may sentence a sex offender to probation for an indeterminate
period of at least ten years for a class 4 felony . . . and
a maximum of the sex offender’s natural life. . . .”).
¶ 12 Carbutt contends that his guilty plea was not
knowing, intelligent, or voluntary because neither the
trial court during the providency hearing nor the written Rule 11 advisement sufficiently informed him that
if he was sentenced to prison, he was required to receive a maximum possible penalty of lifetime imprisonment. Rather, he argues that he reasonably believed
that the imposition of an indeterminate sentence was
discretionary.
¶ 13 In support, Carbutt points to the court’s repeated use of the word “could” during the providency
hearing. For example, when explaining the possible
sentences, the court stated that Carbutt “could be

App. 8
facing an indeterminate sentence in the Department
of Corrections if the Court imposes Department of Corrections, or [he] could be facing an indeterminate sentence on probation if the Court were to place [him] on
probation.” The court also explained to Carbutt that if
it were to impose a sentence, the maximum that he
“could receive would be life.” And, Carbutt was instructed that he “could be looking at a sentence . . . up
to life, lifetime supervision.”
¶ 14 As noted, however, the trial court clearly informed Carbutt that pleading to a sexual offense “requires the [c]ourt to impose an indeterminate
sentence. . . .” When viewing the trial court’s statements in light of the record as a whole, therefore, the
court’s use of the word “could” does not imply that the
court had the discretion to impose anything less than
an indeterminate sentence. Instead, the word “could”
was used to explain the two types of indeterminate
sentences that may be imposed pursuant to SOLSA –
lifetime probation or lifetime imprisonment. Additionally, the trial court twice informed Carbutt that the
court was required to impose an indeterminate sentence. The court explained the meaning of indeterminate sentence several times, to which Carbutt
responded each time that he understood.
¶ 15 While we agree that the written Rule 11 advisement alone did not sufficiently advise Carbutt that
felony sex offenders are subject to mandatory indeterminate sentencing, we nonetheless conclude that
Carbutt’s guilty plea was entered into knowingly, voluntarily, and intelligently. The written Rule 11

App. 9
advisement coupled with the court’s advisement on
SOLSA’s indeterminate sentencing provision sufficiently apprised Carbutt of the direct consequence of
pleading guilty to sexual assault on a child – specifically that the court was required to impose an indeterminate sentence of either lifetime probation or lifetime
imprisonment. Indeed, to the extent Carbutt was confused by the advisement, he had the obligation to
speak up and inform the judge of his confusion. People
v. DiGuglielmo, 33 P.3d 1248, 1251 (Colo. App. 2001).1
¶ 16 Again, the core issue is whether, upon review of
the entire record, Carbutt understood the potential
range of sentences. To that end, the testimony provided
during the postconviction hearing is illuminating. During that hearing, Carbutt’s plea counsel testified that
he had advised Carbutt that he was facing the possibility of a prison sentence, “six years to indeterminate
to life,” but that with the plea to the class 4 felony (and
the resulting dismissal of the class 3 felony), Carbutt
had a possibility of receiving probation. Carbutt
acknowledged that his attorney had so informed him,
and that he knew at the time of his plea that he faced
an indeterminate sentence, “which is essentially a life
sentence.”

1

It is particularly noteworthy that, during the postconviction hearing, Carbutt expressly disavowed any confusion during
the hearing, stating that “there was confusion around, but I
wasn’t the one that was confused.”

App. 10
IV.

Minimum Sentence

¶ 17 Carbutt also argues that the trial court misadvised him that the minimum penalty the court could
impose was between two and six years. We perceive no
error.
A.

Applicable Facts

¶ 18 Carbutt’s written Rule 11 advisement contained
a sentencing chart that outlined the presumptive sentencing ranges for each class of felony offenses. For
class 4 felonies, the chart indicated that the presumptive range was two to six years; however, if the class 4
felony qualified as an extraordinary risk crime, the
range was two to eight years. And, as relevant here, the
chart illustrated that if the court found extraordinary
circumstances, the range would be one to twelve years.
Further, the chart reflected that if the court found extraordinary circumstances for a class 4 felony that
qualified as an extraordinary risk crime, the range was
one to sixteen years.
¶ 19 Carbutt reviewed the written Rule 11 advisement with defense counsel prior to the providency
hearing. Defense counsel drew four circles around different class 4 ranges – including the presumptive
range for general class 4 felonies (two to six years)
and the maximum penalty for a class 4 extraordinary
risk crime with extraordinary circumstances (sixteen
years). Carbutt initialed his name next to the explanation of the presumptive sentences for class 4 felonies

App. 11
and their aggravating ranges, indicating that he was
aware of the applicable sentencing range.
¶ 20 Carbutt also agreed and initialed on the paperwork that
there exist facts or circumstances surrounding the offense(s) [he] committed which are
extraordinarily aggravating and will call for
the Judge to impose a sentence above the
maximum in the presumptive range, and as
high as the maximum shown in the ‘extraordinary circumstances’ portion of the box
marked in the chart below.
¶ 21 During the providency hearing, the trial court
explained to Carbutt that
sentencing with respect to a Class 4 felony of
this nature would normally subject [a defendant] to a potential prison sentence of from 2
years to 6 years in the Department of Corrections in the presumptive range, up to 12 years
if the Court found exceptional circumstances,
and 3 years of mandatory parole, a minimum
fine of $2,000, and a maximum fine of
$500,000. That would be a normal Class 4 felony sentencing range for a normal Class 4 felony.
The trial court never mentioned again that the floor
of Carbutt’s indeterminate sentence could be as high
as twelve years if it found extraordinary circumstances. Rather, whenever the court referred to the
minimum sentence, it informed Carbutt that he could
be sentenced anywhere within the presumptive range

App. 12
of two to six years “and up to . . . life [or] lifetime supervision.”
B.

Analysis

¶ 22 Carbutt contends that his guilty plea was not
made knowingly, voluntarily, and intelligently because
the court failed to advise him that the guilty plea carried a minimum sentence of twelve years. He alleges
that the court repeatedly assured him that the minimum sentence was between two and six years. We
conclude, based upon our review of the record, that
Carbutt was adequately advised on the potential sentencing range.
¶ 23 Carbutt argues that the present case is similar
to that in Hodge, 205 P.3d 481, where the trial court
misadvised the defendant on the applicable minimum
sentence. In Hodge, the defendant was advised that
the sentencing range was two to thirty-two years. Id.
at 485. But, because the conviction required that the
sentence be mandatorily aggravated, the applicable
sentencing range was actually eight to twenty-four
years. Id. A division of this court concluded that because the court informed the defendant that he could
possibly receive a minimum sentence of two years despite the fact that a “sentence of less than eight years
was impossible, this benefit of his bargain was illusory.” Id. Therefore, the guilty plea was invalid.
¶ 24 Carbutt contends that Hodge is dispositive. We
disagree. The conclusion in Hodge turns on the fact
that the defendant entered his guilty plea under the

App. 13
impression that he qualified for a sentencing range
that was a legal impossibility. Unlike in Hodge, the
court here informed Carbutt of the two possible sentencing ranges that could be imposed. The court first
explained to Carbutt that he could be sentenced to the
presumptive range of class 4 felonies – two to six years.
In the alternative, Carbutt could be sentenced to a
range of one to twelve years if the court found extraordinary circumstances. Whereas the court in Hodge
instructed the defendant on a sentence he was not eligible to receive, the court here correctly explained to
Carbutt the permissible range of possibilities for the
floor of his indeterminate sentence. While we agree
that the court primarily referred to the presumptive
range as two to six years throughout the providency
hearing, the trial court did not misadvise Carbutt in
doing so. Indeed, Carbutt was eligible to receive a sentence between two and six years had the court not
found extraordinary circumstances.2
¶ 25 Additionally, the written Rule 11 advisement informed Carbutt that he faced a possible twelve-year
sentence if the court found extraordinary circumstances. Carbutt acknowledged on the Rule 11 advisement that he faced a presumptive range of two to six
2

Carbutt also cites United States v. Santo, 225 F.3d 92 (1st
Cir. 2000), and United States v. Hernandez-Wilson, 186 F.3d 1
(1st Cir. 1999), in support. However, in each of these cases, the
defendant was misinformed of the statutory minimum sentence.
See Santo, 225 F.3d at 93-94; see also Hernandez-Wilson, 186 F.3d
at 5. Because Carbutt was not misinformed about the applicable
minimum sentence, Santo and Hernandez-Wilson are not dispositive.

App. 14
years, subject to an increase to twelve years for extraordinarily aggravating circumstances. And, he agreed
that extraordinarily aggravating circumstances existed here.
¶ 26 Based on our review of the record, we conclude
that Carbutt was sufficiently advised of the minimum
penalty he faced, specifically the enhanced range of one
to twelve years for extraordinarily aggravating circumstances. Accordingly, his guilty plea was entered
into knowingly, voluntarily, and intelligently.
V.

Fifth Amendment Protections

¶ 27 Carbutt further argues that (1) the trial court
failed to advise him that he had the right to remain
silent during his presentence investigation and (2) the
trial court compelled him to incriminate himself by
ordering him to participate in a presentence investigation. We reject each contention in turn.
A.

Trial Court Advisement

¶ 28 To ensure the constitutionality of a guilty plea,
Crim. P. 11(b) requires a trial court to inform a defendant of the nature of the constitutional protections he
or she is waiving. Sanchez-Martinez, 250 P.3d at 1254.
As relevant here, Crim. P. 11(b)(1) precludes a trial
court from accepting a guilty plea without first advising a defendant of the rights set forth in Crim. P.
5(a)(2), including the right against self-incrimination.

App. 15
¶ 29 Carbutt argues that his guilty plea is deficient
because the trial court failed to advise him that he
could assert his right to remain silent during the
presentence investigation. However, Crim. P. 11(b) only
requires that a trial court “inform the defendant and
make certain that the defendant understands . . .
[that] [t]he defendant need make no statement and
any statement made can and may be used against the
defendant.” Crim. P. 5(a)(2)(I).
¶ 30 Carbutt asks us to construe Crim. P. 11 to require trial courts to affirmatively advise defendants
that they do not waive their Fifth Amendment right
against self-incrimination during presentence investigations. But, the plain language of Crim. P. 11 does not
require a trial court to make this explicit advisement.
Our inquiry therefore is limited to whether the trial
court informed and made certain that Carbutt understood that he “need make no statement and any statement made can and may be used against [him].” Crim.
P. 5(a)(2)(I).
¶ 31 The record reflects that the written Rule 11 advisement informed Carbutt of his right against selfincrimination, as well as additional constitutional
protections. The advisement included an initialed
statement that Carbutt was aware that he “ha[s] the
right to remain silent, and not say anything or make
any statement whatsoever about this case. [He]
know[s] that if [he] do[es] choose to make any statement, that statement could be used against [him] in
Court.” Following the recitation of his constitutional
protections, he acknowledged that “when [he] plead[s]

App. 16
guilty, except for the right to counsel, [he] give[s] up
all these rights and all possible defense(s) to the
charge(s).”
¶ 32 During the providency hearing, the trial court
confirmed that Carbutt read and understood his constitutional rights outlined in the Rule 11 advisement,
including the right against self-incrimination. The
trial court then asked whether Carbutt understood
that he was giving up those constitutional protections
by pleading guilty. Carbutt responded, “Yes. We went
through it several times.” The court asked whether he
had any remaining questions about the rights he was
waiving, to which Carbutt responded that he did not.
¶ 33 We conclude that the trial court sufficiently
complied with the requirements outlined in Crim. P.
11. The written Rule 11 advisement, as well as the trial
court’s advisement, reasonably informed Carbutt of his
right against self-incrimination and that he was waiving that right by pleading guilty.3
B.

Compelled Incrimination

¶ 34 Carbutt next contends that the trial court compelled him to incriminate himself by requiring him to
complete a presentence investigation. We agree with
3

To the extent that the parties contest whether defendants
waive their Fifth Amendment rights during presentence investigations, we need not announce any bright line rule. Suffice it to
say that in this case, Carbutt’s written Fifth Amendment waiver
was broad enough to encompass a waiver of his right against selfincrimination during his presentence investigation.

App. 17
the postconviction court that while incriminating, his
speech was not compelled. Accordingly, we perceive no
error.
¶ 35 The Fifth Amendment of the United States Constitution guarantees that no person shall be “compelled in any criminal case to be a witness against
himself.” This guarantee extends not only to criminal
trials, but it also privileges defendants “not to answer
official questions put to [them] in any other proceeding,
civil or criminal, formal or informal, where the answers might incriminate [defendants] in future criminal proceedings.” People v. Roberson, 2016 CO 36, ¶ 21
(quoting Lefkowitz v. Turley, 414 U.S. 70, 77 (1973)).
However, the right against self-incrimination is not
self-executing, and a defendant must assert it. Salinas
v. Texas, 570 U.S. 178, 181 (2013). A person’s failure to
invoke his or her right against self-incrimination is excused when the person is compelled to relinquish this
right. Id. at 185; see Minnesota v. Murphy, 465 U.S. 420,
434 (1984).
¶ 36 Here, there is nothing in the record indicating
that Carbutt invoked his Fifth Amendment right
during the presentence investigation. Consequently,
Carbutt can only succeed on his Fifth Amendment
claim if we conclude that the trial court compelled
Carbutt to incriminate himself merely by ordering him
to participate in a presentence investigation. We
therefore must first assess (1) whether the evaluation
elicited incriminating information and (2) whether
the circumstances in which the questions were posed

App. 18
amounted to compulsion within the meaning of the
Fifth Amendment. Roberson, ¶ 22.
¶ 37 Testimony is incriminating if it supports the
conviction or would furnish a link in the chain of evidence needed to prosecute the accused. Id. at ¶ 23.
Here, Carbutt participated in a sex-offense evaluation
that included a sexual history polygraph examination,
during which he admitted to sexually assaulting multiple children, as well as animals. During sentencing,
the trial court relied in part on the admissions made
during the evaluation when it imposed Carbutt’s aggravated sentence. Thus, the testimony provided during the presentence investigation was certainly
incriminating.
¶ 38 But, we cannot conclude that the testimony was
compelled. Testimony is compelled when the state
threatens to inflict sanctions unless a defendant abandons his Fifth Amendment right or when a state imposes substantial penalties because a defendant has
elected to exercise his or her Fifth Amendment right.
Id. at ¶ 31 (threatening defendant with revocation of
his probation based on the proper invocation of his
Fifth Amendment right amounted to compulsion); see
United States v. Von Behren, 822 F.3d 1139 (10th Cir.
2016) (holding that it was unconstitutional compulsion
to seek revocation of defendant’s supervised release if
he refused to answer certain incriminating questions
during a polygraph examination).
¶ 39 Carbutt fails to allege that the State threatened
to inflict sanctions or substantial penalties if he

App. 19
invoked his right against self-incrimination during
the presentence investigation. Instead, Carbutt contends that the trial court’s “order” to complete the
presentence interview is sufficient to deem his testimony compelled.
¶ 40 During sentencing, the trial court gave the following advisement:
I’ll accept your plea today, and I’ll set your
case for sentencing over in about two months.
I’ll order that you complete a presentence investigation. As a result of this plea, you’ll also
have to complete a sex-offense specific evaluation. You’ll have to meet with Mental Health
Center, and they’ll trigger different evaluations. It’s a lot more intensive than a normal
presentence investigation, so you’ll have to
get all those evaluations done before you come
back here.
The trial court’s “order” simply instructed Carbutt that
he was required to participate in a presentence investigation, including a sex-offense specific evaluation.
See Murphy, 465 U.S. at 427 (concluding there is no
Fifth Amendment violation when a witness is merely
required to appear and give testimony). The trial court
did not threaten to inflict sanctions if Carbutt invoked his Fifth Amendment right during the investigation. Nor did the trial court threaten to impose
substantial penalties if Carbutt refused to answer the
evaluator’s questions. Indeed, the trial court did not
preclude Carbutt from raising his Fifth Amendment
privilege nor require him to revoke this right during

App. 20
the presentence investigation.4 Accordingly, the record
establishes that the trial court’s instruction did not
compel Carbutt to incriminate himself. We therefore
reject Carbutt’s argument.
VI.

Additional Contentions

¶ 41 Carbutt also contends that (1) the Rule 11 advisement did not adequately inform him that he was
giving up his right to remain silent only at trial and (2)
the court misadvised him that he abandoned his right
to remain silent during the presentence investigation.
Because Carbutt did not present either of these claims
in the postconviction motions under review, we will not
address them. See DePineda v. Price, 915 P.2d 1278,
1280 (Colo. 1996) (“Issues not raised before the district
court in a motion for postconviction relief will not be
considered on appeal of the denial of that motion.”).
VII.

Conclusion

¶ 42 The order is affirmed.
JUDGE DUNN concurs.
JUDGE CARPARELLI specially concurs.

4

Carbutt’s reliance on United States v. Von Behren, 822 F.3d
1139 (10th Cir. 2016), is inapposite. Unlike in Von Behren, where the
defendant refused to answer questions during a sexual history polygraph and faced the potential revocation of his supervised release,
Carbutt neither invoked his right against self-incrimination during
the presentence investigation nor faced a penalty for doing so.

App. 21
JUDGE CARPARELLI, specially concurring.
¶ 43 I concur. Defendant received sufficient information to fairly inform him regarding the possible
sentences and repeatedly said he understood. I also
agree that there was no violation of defendant’s Fifth
Amendment rights.
¶ 44 I write separately to emphasize the gravity of
child sexual assault cases and indeterminate sentences, and the need for all participants to treat these
cases with particular care. Whether cases are resolved
by pleas or trials, reports of sexual assaults on children
involve extremely significant consequences for the
children, their families, those who are accused, and the
community. In this case, the reports involved five children, their families, their grandfather, and multiple incidents. As in all such cases, the accused was in
jeopardy of an indeterminate sentence of life in prison.
It is difficult to imagine more grave consequences.
¶ 45 Given the gravity of such cases, defense counsel
owe it to their clients to give personal and diligent attention to ensuring clear and accurate written Rule 11
advisements. Prosecutors owe it to the alleged victims,
the accused, and the court to diligently review the defense counsel’s Rule 11 advisement to ensure clarity
and accuracy, and to bring attention to all perceived
deficiencies. Courts have the final responsibility to ensure the precision of the written and oral advisements.
¶ 46 It is of utmost importance that defendants understand indeterminate sentencing, and all participants
bear responsibility to ensure that understanding.

App. 22
Standard forms must be precisely tailored in each case.
Oral advisements should be planned carefully, and the
nature of indeterminate sentencing must be described
precisely. Ideally, defendants should be asked to describe their understanding of the nature of an indeterminate sentence. Given the gravity of such a sentence,
a model description and colloquy that asks defendants
to describe their understanding of the nature of indeterminate sentencing would be of significant value.

App. 23
District Court, Conejos
DATE FILED: April 3, 2017
County, State of Colorado
10:01 AM
Address: 6683 County Rd. 13, CASE NUMBER: 2015CR49
P.O. Box 128, Conejos, CO
81129
Phone No.: 719-376-5465
▲ COURT USE ONLY ▲
Plaintiff: PEOPLE
OF THE STATE OF
COLORADO

Case No: 2015CR49
Division 2

v.
Defendant:
OLIVER RAY CARBUTT
Order: Denying Defendant’s “Motion to Vacate
Conviction and Sentence (Ineffective Assistance
of Counsel)” After Evidentiary Hearing and
Addressing Remaining Motions
THIS MATTER came before the Court on March
1, 2017 for a hearing on Defendant Oliver Ray Carbutt’s “Motion to Vacate Conviction and Sentence (Ineffective Assistance of Counsel) *Filed Under Seal*”
(or the “Motion”), filed June 30, 2016; the People’s response, filed on October 28, 2016; and the Court’s Order Granting Hearing, entered November 22, 2016.
After the hearing, the Defendant filed written argument on March 23, 2017; the People responded on
March 24, 2017; and the Defendant replied on March
27, 2017. The People appeared through Deputy District
Attorney Robert S. Willett. The Defendant appeared in
custody and with counsel, Joseph Saint-Veltri, Esq.,
and Kelly C. Cherry, Esq.

App. 24
Introduction
Mr. Carbutt pleaded guilty to a single count of sexual assault on a child and, before sentencing, he admitted to numerous other sex offenses during a sexual
history polygraph. He now argues that his previous
attorney, Raymond Kenneth Miller, Esq., had not adequately advised him of his privilege against selfincrimination at two stages: before the sex-offense
evaluation and before the providency hearing. Mr. Miller did not entirely neglect the privilege against selfincrimination: Mr. Miller had advised him of his right
to remain silent. Hearing Tr. 26:20 to 27:13 (Mar. 1,
2017). But, Mr. Miller did not use the term “privilege
against self-incrimination” or tell Mr. Carbutt that he
could refuse to answer questions about his sexual history. Id. at 27:14-20, 28:7-12. Did Mr. Miller’s performance fall short of the then-prevailing professional
norms? The Court cannot find that it did.
Mr. Carbutt had the burden of showing, by a preponderance of the evidence, that his previous attorney’s performance was deficient, see Strickland v.
Washington, 466 U.S. 668, 697 (1984) (standard); Pendleton, 2015 COA 154, ¶ 6 (burden of proof ), and “[t]he
proper measure of attorney performance” is “reasonableness under prevailing professional norms,” Strickland, 466 U.S. at 688. Mr. Carbutt provided very little
evidence – if any – that directly addresses the thenprevailing professional norms. And, Mr. Carbutt’s arguments are contrary to some of the then-existing case
law. Most importantly, if Mr. Miller had advised Mr.
Carbutt that he could refuse to answer questions

App. 25
during the sexual history polygraph, this advice would
have contradicted the ruling of a federal district court.
See United States v. Von Behren (Von Behren I), No. 04CR-00341-REB, 2015 WL 350782, at *7 (D. Colo. Jan. 27,
2015), rev’d 822 F.3d 1139 (10th Cir. 2016). The Tenth
Circuit had not yet reversed this decision, and the
Colorado Supreme Court had not definitively ruled
otherwise. In this context, the Court cannot find, by a preponderance of the evidence, that the then-prevailing
professional norms required Mr. Miller to give advice
contrary to the federal district court’s ruling. Because
Mr. Miller’s performance was not deficient, the Court
denies Mr. Carbutt’s Motion.
Applicable Law
Mr. Carbutt brings his motion under Rule 35(c).
Under this rule, “[e]very person convicted of a crime is
entitled to apply for postconviction relief on grounds
that the conviction was obtained, or the sentence was
imposed, in violation of the Constitution or laws of the
United States or Colorado.” People v. Pendleton, 2015
COA 154, ¶ 6. The Constitution guarantees criminal
defendants the effective assistance of counsel during
“critical stages” of the proceeding. See People v. Munsey, 232 P.3d 113, 125 (Colo. App. 2009). These “critical
stages” include the decision to plead guilty, see Lafler v.
Cooper, 566 U.S. 156, 177 (2012), and, the Court assumes, the decision to participate in an offense-specific
examination, see Estelle v. Smith, 451 U.S. 454, 47071 (1981); Estrada v. State, 143 Idaho 558, 562, 149
P.3d 833, 837 (2006). To show ineffective-assistance, a

App. 26
defendant must show both (1) that defense counsel’s
performance was deficient, and (2) that the deficient
performance prejudiced the defense. Strickland v.
Washington, 466 U.S. 668, 697 (1984). The defendant
has the burden of showing, by a preponderance of the
evidence, that his attorney’s performance was deficient. See People v. Naranjo, 840 P.2d 319, 325 (Colo.
1992). But see Pendleton, ¶ 23 n.5. If the defendant
does not show that his attorney’s performance was deficient, the Court may deny his ineffective-assistance
claim without addressing prejudice. See Strickland,
466 U.S. at 697.
The People suggest that a different legal framework applies. The People contend that Rule 32(d) governs the Defendant’s motion instead of Rule 35(c).
Under either rule, ineffective assistance of counsel
may constitute an adequate ground for relief, see People v. Hunt, 2016 COA 93, ¶ 12, but, the Defendant expressly relies on Rule 35(c) and insists upon this
standard, see Reply, ¶ 5. The Court, therefore, does not
consider whether the Defendant met the standard under Rule 32(d) – i.e., whether he has given a “fair and
just reason” to withdraw his guilty plea – but instead
analyzes the Defendant’s Motion under Rule 35(c).
The People also suggest that Mr. Carbutt did not
have the right to effective assistance of counsel before
the sex-offense evaluation, because he did not have the
right to have counsel present during the evaluation.
See Response, ¶ 2 (quoting United States v. Gordon, 4
F.3d 1567, 1572 (10th Cir. 1993)) (citing Wainwright v.
Tama, 455 U.S. 586, 587-88 (1982) (per curium [sic])).

App. 27
The Court agrees that the Defendant did not have the
right to have counsel present, but it does not follow
that the Defendant was not entitled to competent advice beforehand. The United States Supreme Court
has held that a criminal defendant has the right to advice before an examination, even when he does not
have “right to have counsel actually present during the
examination.” Estelle, 451 U.S. at 471 & n.14; Hughes
v. State, 148 Idaho 448, 456-57, 224 P.3d 515, 523-24
(Ct. App. 2009). And for good reason. Counsel’s actual
presence would contribute “little” and might “seriously
disrupt” the examination. Estelle, 451 U.S. at 471 n.14.
In contrast, counsel’s advice beforehand would be very
useful and would pose little risk of disruption. The
Court is not persuaded by the People’s argument.1 The
Court, therefore, assumes the decision to participate in
an offense-specific examination is a critical stage and
addresses the parties’ arguments about whether Mr.
Miller’s performance was deficient.

1

The People raise a difficult issue: whether the Defendant
had the right to effective assistance of counsel before the sex-offense evaluation. Generally, courts have held that presentence investigations are not “critical stages.” See In re Carter, 2004 VT 21,
¶¶ 60-61 (collecting cases). But, some courts have carved out an
exception for at least some evaluations. Estrada, 143 Idaho at
562, 149 P.3d at 837. The parties have not adequately briefed this
issue, and the Court need not decide it to rule against the Defendant. The Court, therefore, assumes the decision to participate in
an offense-specific examination is a critical stage.

App. 28
Parties’ Arguments
Mr. Carbutt contends that his previous attorney,
Mr. Miller, provided ineffective assistance of counsel
because he did not advise Mr. Carbutt of his privilege
against self-incrimination but instead advised Mr. Carbutt to be forthcoming during the interview and evaluation process. Argument re: Hearing of March 1, 2017,
at ¶ 13, filed March 8, 2017. He argues that his previous attorney’s representation was deficient because
the attorney did not advise him that he could invoke
the privilege against self-incrimination during the sexoffense evaluation. Id. at ¶ 17(a). And, the deficient
performance prejudiced him because, with better advice, he would not have pleaded guilty and, alternatively, because the Court later relied on his admissions
to impose an aggravated sentence. Id. at ¶ 17(b). As relief, he asks the Court to vacate his sentence, permit
him to withdraw his plea of guilty, and set this matter
for trial. Id. at pg. 4.
In response the People contend that Mr. Carbutt
was adequately advised of his right to remain silent.
Mr. Carbutt was advised of his right to remain silent
“throughout the case, including at the colloquy with
the Court. . . .” Response, ¶ 2. The People, further, argue that Mr. Carbutt’s testimony was “self-serving”
and “disingenuous.” Response, ¶ 3. Specifically, they argue that Mr. Carbutt sought “a ‘do over’ after discovering that the penalty imposed for his conduct was
unpleasant.” Response, ¶ 1. And, he also displayed “remarkable lack of memory and ability to articulate his
recollection of the circumstances harmful to his

App. 29
position, all while displaying a crystal-clear ability to
answer questions posed by his counsel which would be
helpful to his position.” Response, ¶ 3. The People urge
the Court to find that Mr. Carbutt was adequately advised of his right to remain silent. The Court largely
agrees with the People’s assessment of the evidence.
Findings of Fact
At the Rule 35(c) hearing, the parties stipulated to
the Court taking judicial notice of the record in this
case; to the admission of Defendant’s Exhibit A, a transcript of the October 16, 2015 providency hearing; and
to the admission of People’s Exhibit 1, an affidavit
signed by Raymond K. Miller, Esq. The Court heard
testimony from Mr. Carbutt’s earlier attorney, Raymond Kenneth Miller, Esq.; the defendant, Mr. Carbutt; a defense expert, Michael Meyrick, Esq.; and, the
defendant’s ex-wife, Dawn Carbutt. Having reviewed
the record, exhibits, and testimony, the Court now
finds:
1. On July 21, 2015, the People charged Mr. Carbutt with fifteen counts – five counts of Sexual Assault
on a Child by One in a Position of Trust, under C.R.S.
18-3-405.3(1), (2)(b), see Counts 1-5; five counts of Sexual Assault on a Child – Pattern of Abuse, under C.R.S.
18-3-405(1), (2)(d), see Counts 6-10; and five counts of
Aggravated Incest, under C.R.S. § 18-6-302(1)(b), see
Counts 11-15. The counts concerned five different victims, and concerned alleged assaults occurring between February 1, 2013 and July 31, 2014.

App. 30
2. On July 24, 2015, Mr. Miller entered his appearance in this case. During his early meetings with
Mr. Carbutt, Mr. Miller repeatedly advised Mr. Carbutt
that he had the right to remain silent. In addition, he
repeatedly advised Mr. Carbutt not to speak to anyone
about the case. See Hearing Tr. 26:20 to 27:13 (Mar. 1,
2017).
3. Reflecting on Mr. Miller’s advice, Mr. Carbutt
testified that he had, at most, a “nebulous” understanding of the privilege against self-incrimination. Hearing
Tr. 35:3-9 (Mar. 1, 2017). But, he did not explain how
his later, improved understanding differed from Mr.
Miller’s explanation of the right to remain silent. He
did not articulate a meaningful difference between the
two. (Mr. Meyrick suggested a possible difference: Mr.
Meyrick opined that Mr. Miller’s advice did not
properly distinguish between “the privilege against
self-incrimination” and “the right to remain silent.”
But, Mr. Meyrick misunderstood Mr. Miller’s testimony. Mr. Meyrick distinguished between, first, advising a client not to say anything about a case and,
second, advising a client of the privilege against selfincrimination. He explained that the first advisement
addresses the fact that a defendant’s statements are
admissible in later proceedings under the hearsay
rules. The second advisement involves state action and
compulsion. But, Mr. Miller did not equate “the right to
remain silent” with his advice that Mr. Carbutt not say
anything about this case. At the Rule 35(c) hearing,
neither party asked Mr. Miller to explain what he
meant by the “right to remain silent” nor asked him to

App. 31
explain how it differed from the privilege against selfincrimination. But, the term “right to remain silent”
suggests more than prudent advice about not making
incriminating statements – it implies a right to refuse
to do so.)
4. Mr. Miller met with Mr. Carbutt before Mr.
Carbutt pleaded guilty. They went over the Rule 11
form “word-by-word.”2 Hearing Tr. 15:14-17 (Mar. 1,
2017). In the Rule 11, Mr. Carbutt agreed to plead
guilty to Added Count 16 – Sexual Assault on a Child
– Victim less than 15, under C.R.S. § 18-3-405(1), a
class four felony. As consideration for the guilty plea,
the prosecution dismissed the original fifteen counts,
and the DDA would not file certain, new charges. See
Rule 11 form, at pg. 9; Hearing Tr. 9:1-14 (Oct. 16,
2015). Mr. Carbutt was not given immunity for his answers during the sex-offense evaluation.
5. The Rule 11 form addressed the right to remain silent:
f. _____ I know that I have the right to remain
silent, and not say anything or make any
statement whatsoever about this case. I know
that if I do choose to make any statement, that
statement could be used against me in Court.
....
k. _____ I know that when I plead guilty,
except for the right to counsel, I give up
2

The Rule 11 form was included in the record as “Defendant’s Request to Plead Guilty (Crim. P. Rule 11 Guilty Plea Advisement),” filed October 16, 2016 [sic].

App. 32
all of these rights and all possible defense(s) to the charge(s).
Rule 11 form, ¶ 5(f ), (k) (underline added). Mr. Carbutt
initialed next to each of these subparagraphs. At that
time, Mr. Miller also advised Mr. Carbutt that he’d
have to submit to a sex-offender evaluation, a presentence investigation (PSI), and a polygraph. Hearing
Tr. 17:2-6 (Mar. 1, 2017).
6. Mr. Carbutt pleaded guilty to Added Count 16,
the Court accepted his guilty plea, and the Court set
the matter for a sentencing hearing. Hearing Tr. 16:19
to 17:5; 18:6-9. The Court ordered Mr. Carbutt to complete a sex-offense specific evaluation that would be “a
lot more intensive than a normal presentence investigation. . . .” Hearing Tr. 13:21 to 14:3 (Oct. 16, 2015)
(Defendant’s Exhibit A).
7. After the guilty plea and before the evaluation, Mr. Miller met with Mr. Carbutt twice in person
and had two phone calls. He advised Mr. Carbutt to be
honest “regarding this case.” Hearing Tr. 17:18-19
(Mar. 1, 2017). He also advised Mr. Carbutt that, depending on the statute of limitations, he could be prosecuted for earlier offenses. Hearing Tr. 17:12-15 (Mar.
1, 2017). Mr. Miller believed that he was effective in
advising Mr. Carbutt about the PSI and the offensespecific evaluation.
8. Reflecting on this these advisements, Mr. Carbutt later testified that Mr. Miller also advised him to
“tell all” during the sexual history polygraph or, put
differently, that his life was an “open book.” E.g.,

App. 33
Hearing Tr. 46:13-16, 51:10-13 (Mar. 1, 2017). Mr. Carbutt claims this meant he should admit to uncharged
sex offenses. But, his testimony is not credible on this
point. Mr. Miller advised Mr. Carbutt to be honest regarding this case. Hearing Tr. 17:18-19 (Mar. 1, 2017).
Mr. Miller was forthright in acknowledging what he
believed to be his errors during the pendency of this
case. He did so in his Affidavit (People’s Exhibit 1) and
in his testimony. If he had advised Mr. Carbutt to admit to other offenses, then he would have admitted to
it.
9. Mr. Carbutt also testified that he did not know
that he had the right to remain silent during the PSI
and sex-offense specific evaluation. To explain his ignorance, he pointed to the Court’s instruction that he
would have to complete the PSI and also the sexoffense evaluation. This testimony was not credible.
Contrary to Mr. Carbutt’s testimony, Mr. Miller had advised him of his right to remain silent in general and
the Rule 11 form was clear that Mr. Carbutt waived his
right to remain silence [sic] only as to “this case.” Rule
11, ¶ 5(f ), (k) (underline added). He otherwise retained
the right to remain silent.
10. Mr. Carbutt completed the sex-offense evaluation, and in doing so, he admitted to numerous sexual
offenses. Some of these offenses related to Added
Count 16 and the named victim, M.C. Some of the admissions appear to involve the named victims in

App. 34
Counts 1 through 15.3 And, some of the admissions
were unrelated to the charged offenses. These admissions included offenses committed outside of the date
range for the charged offenses and people other than
the named victims. Compare Polygraph Report, at 2-3
(filed December 16, 2015), with Compl. & Information
(filed July 1, 2015) and Aff. for Arrest Warrant (filed
July 21, 2015).
11. On December 18, 2015, the Court sentenced
Mr. Carbutt to fifteen years to life. The Court relied, in
part, on Mr. Carbutt’s statements during the polygraph examination to find that the facts and circumstances of this case were “egregious.” Hearing Tr. 23:22
to 24:5, 27:23 to 28:2 (Dec. 18, 2015); compare Hearing
Tr. 28:3 to 29:4 (Dec. 18, 2015) with Polygraph Report,
at 2 (attached to PSIR).
12. Mr. Miller withdrew after sentencing.
Throughout this case, Mr. Miller had more than ten
face-to-face meetings with Mr. Carbutt and, in addition, spoke with him on the phone.4 Some of these
meetings were devoted to a pending DSS case, and
some concerned the proposed plea agreement and the
sex-offense-specific evaluation. In these advisements,
Mr. Miller did not advise Mr. Carbutt more specifically
that Mr. Carbutt could invoke the privilege against
3

The Polygraph Report does not provide names (except
M.C.’s name). Still, the record allows the court to make a reasonable inference that there is some overlap.
4
Neither party elicited testimony about the total number of
phone calls, and the Court does not make any findings about how
many phone calls occurred.

App. 35
self-incrimination during the sex-offense specific evaluation or that Mr. Carbutt could refuse to answer questions. (Testimony of Mr. Miller and Mr. Carbutt.) He
did not provide this more-specific advisement to any of
his clients in other sex assault cases. (Testimony of Mr.
Miller.) And, Mr. Miller did not use the term “privilege
against self-incrimination” or describe the privilege’s
“components.” (Testimony of Mr. Miller.) But, his choice
of terms does not appear to have affected the substance
of his advice.
13. In April 2016, Mr. Carbutt filed his first set of
postconviction motions. The Court largely denied these
motions, but the Court corrected Mr. Carbutt’s sentence (reducing it from a fifteen-year minimum to a
twelve-year minimum).
14. On June 30, 2016, Mr. Carbutt filed the pending Motion. The Court took the motion under advisement. Shortly afterward, the case was briefly before
the court of appeals: On August 5, 2016, Mr. Carbutt
filed a “Notice of Appeal,” and, on September 9, the
court of appeals remanded the case for resolution of
this Motion with all due speed.
15. On September 27, 2016, the Court entered an
order denying many of Mr. Carbutt’s remaining claims
but ordering the district attorney to respond to the
claim at issue here. On October 28, 2016, the district
attorney filed a response. In it, the district attorney
asked the Court to deny the sole remaining claim without a hearing. The Court disagreed, and, on November
22, 2016, the Court granted Mr. Carbutt’s request for a

App. 36
hearing. The hearing was ultimately set on March 1,
2017.
16. At the Rule 35(c) hearing, the Court heard
testimony from an expert witness: Mr. Meyrick. He
opined that Mr. Miller performed deficiently. In offering this opinion, Mr. Meyrick did not testify about the
then-prevailing professional norms. Instead, Mr. Meyrick explained that he has been giving detailed advisements about the privilege against self-incrimination to
clients for 19 years. He testified that he gave these advisements at multiple stages – including before the
providency hearing and before a sex-offense evaluation. He acknowledged that, during the pendency of
this case, the Colorado Supreme Court had not decided
People v. Roberson, 2016 CO 36. But, he opined that
this case did not affect his practice. Instead, he believed this case was a clear application of existing law.
17. His testimony had limited value for two reasons. First, Mr. Meyrick relied on Mr. Carbutt’s account
rather than Mr. Miller’s account at certain key points.
For instance, Mr. Meyrick opined that he would not advise his client that his life is an open book. But, as discussed above, the Court does not find that Mr. Miller
gave such advice. Second, Mr. Meyrick addressed both
prongs of Strickland. But, in addressing the deficiency
prong, Mr. Meyrick did not expressly describe the thenprevailing professional norms – or, more particularly,
the then-prevailing professional norms in sexual assault
case. Instead, Mr. Meyrick explained his testimony in
terms of on his personal practices and experience. He
has had limited personal experience with sexual

App. 37
assault cases, handling approximately fifty cases in
nineteen years. But, Mr. Meyrick and his practices do
not represent the threshold of competence for criminal
defense attorneys. Instead, Mr. Meyrick’s practices reflect the best practices for a criminal defense attorney.
For these reasons, the Court finds that Mr. Meyrick
was credible but also finds that his testimony has limited value for the issues in this case.
18. Mr. Carbutt also testified at the Rule 35(c)
hearing. He acknowledged that he did not like being in
the Department of Corrections, and he appeared
strongly motivated to obtain a lower sentence. This
motivation led him to skew his testimony, exaggerate
parts of it, or tailor it to the applicable legal standard.
For instance, he testified that if he had known of the
privilege against self-incrimination before the providency hearing, then he would have halted the proceeding and insisted on going to trial. But, he did not
explain how this additional knowledge would have affected his decision, and this testimony appears tailored
to establish prejudice under Strickland.
19. After the Rule 35(c) hearing, the Court allowed the parties to file written argument. The parties
have done so, and the matter is now ripe.
Analysis
After taking evidence at the Rule 35(c) hearing,
the Court concludes that Mr. Carbutt did not meet his
burden of proof. Mr. Carbutt must show, by a preponderance of the evidence, that his previous attorney’s

App. 38
performance was deficient. Strickland, 466 U.S. at 697;
Pendleton, ¶ 6. In assessing an attorney’s performance,
the Court must focus on “whether an attorney’s representation amounted to incompetence under ‘prevailing
professional norms,’ not whether it deviated from best
practices or most common custom.” Harrington v. Richter, 562 U.S. 86, 105 (2011) (quoting Strickland, 466
U.S. at 690). The Court’s inquiry is sensitive to changes
over time, and the Court assesses an attorney’s performance under “the then-prevailing professional norms.”
People v. Hunt, 2016 COA 93, ¶ 32; see People v. Naranjo, 840 P.2d 319, 326 (Colo. 1992) (looking to thenprevailing professional norms as standard); People v.
Pozo, 746 P.2d 523, 527 (Colo. 1987) (same). In defining
the then-prevailing professional norms, courts have
looked to the applicable law. If the law is settled, then
counsel’s decision to ignore it likely falls below prevailing professional norms. Williams v. Anderson, 460 F.3d
789, 800 (6th Cir. 2006). But, if the case law is not settled, defense counsel has more latitude. United States
v. Seitter, 271 F. App’x 788, 791 n.2 (10th Cir. 2008). Mr.
Carbutt contends that Mr. Miller’s performance was
deficient at two stages: (A) before the sex-offense evaluation, and (B) before the providency hearing.
A. Before the Sex-offence Evaluation
Mr. Carbutt contends that his previous attorney,
Mr. Miller, should have given a more specific advisement about the privilege against self-incrimination before the sex-offense evaluation. The Court disagrees.

App. 39
On this issue, Mr. Meyrick opined that a minimally competent attorney would have advised Mr.
Carbutt that he could invoke his privilege against selfincrimination during the evaluation. Mr. Meyrick explained that it was his practice to provide such advice
multiple times throughout the pendency of a case. The
Court finds that Mr. Meyrick’s testimony reflects his
personal practices and – to his credit – best practices.
But, an attorney’s advice is not measured against best
practices, Harrington, 562 U.S. at 105; instead, the
standard is “the then-prevailing professional norms,”
Hunt, ¶ 32. In assessing these norms, courts have considered whether the advice concerned then-settled law.
See Seiner, 271 F. App’x at 791 n.2.
Here, the case law was not settled as of October
2015. The closest line of cases addresses sex offender
intensive supervision probation (or “SOISP”). SOISP
involves sex-offender treatment and, sometimes, a
court-ordered sexual history polygraph. E.g., People v.
Roberson, 2016 CO 36. Even in this area, different jurisdictions have reached different conclusions. See People v. Guatney, 183 P.3d 620, 623 (Colo. App. 2007),
vacated, 214 P.3d 1049 (Colo. 2009) (collecting cases).
But, as of the fall of 2015, the Colorado Supreme Court
had not addressed how the privilege applies to courtordered sexual history polygraphs. See Roberson, ¶¶ 1,
18-19 (noting that issue was one of first impression).
At that time, the lower courts had reached different results: One court held that defendants could be compelled to answer at certain kinds of questions during
a sexual history polygraph, Von Behren I, 2015 WL

App. 40
350782, at *7 (D. Colo. Jan. 27, 2015)5; and, on the opposite end of the spectrum, another court held that defendants could not be compelled to even attend offense
specific treatment, People v. Ruch (Ruch I), 2013 COA
96, ¶ 63, rev’d, 2016 CO 35. Both of these decisions
were on appeal in the fall of 2015. And, after Mr. Carbutt submitted to a sex-offense-specific evaluation, the
appellate courts reversed in each case. United States v.
Von Behren (Von Behren II), 822 F.3d 1139 (10th Cir.
2016); People v. Ruch (Ruch II), 2016 CO 35, ¶ 19. The
then-existing case law was not settled on whether – or
to what extent – the Court could compel a defendant to
answer questions in a sexual history polygraph. In
light of the unsettled case law and the evidence at
the hearing, Mr. Carbutt has not shown that thenprevailing norms required a more specific advisement.
Indeed, some of the case law suggested that this advice
would be incorrect. Therefore, Mr. Carbutt has not met
his burden of showing, by a preponderance of the
5

In Von Behren I, the federal district court addressed specific
questions and follow-up. The court reasoned that these questions
did not call for much information, and “would not have provided
nearly enough information to support further investigation, let
alone a viable prosecution.” 2015 WL 350782, at *4. The court,
therefore, concluded that the probationer may be required to complete a sexual history polygraph without violating his privilege
against self-incrimination. Id. at *8. Here, the parties have not
provided any evidence about what specific questions were asked.
But, Mr. Carbutt has previously suggested that “[m]any of the
questions asked of Mr. Carbutt were similar to those discussed in
the Von Behren case. . . .” Second Motion to Withdraw Plea of
Guilty (Constitutional Violation), ¶ 15, filed May 25, 2016. And,
he has not provided any evidence to the contrary. See Pendleton,
¶ 6 (defendant has the burden).

App. 41
evidence, that his previous attorney’s performance was
deficient.
Mr. Carbutt relies on Mr. Meyrick’s testimony. Mr.
Meyrick had explained that the changes in case law
did not affect his practice and that Roberson, in particular, did not articulate a new standard but represented
a clear application of existing law. But, at the time, the
law was not as clear as Mr. Meyrick suggests. Mr. Meyrick appears to have adopted an extraordinarily careful approach to these advisements and, thus, his
practice does not reflect then-prevailing norms. The
Court is, therefore, not persuaded by his testimony.
Mr. Carbutt suggests that Mr. Miller was also
deficient in not advising him of “the privilege against
self-incrimination” as opposed to “the right to remain
silent.” The Court agrees that when Mr. Miller advised
Mr. Carbutt of “the right to remain silent”, he did not
use the term “the privilege against self-incrimination”
or advise Mr. Carbutt more specifically of the privilege’s “components.”
Mr. Carbutt did not offer any evidence of what
these “components” were or explain why he could not
make a reasonably informed decision without being
advised as to these components. On the evidence before
the Court, the Court is not satisfied that Mr. Carbutt
has identified anything much more than a difference
in terminology. See, e.g., Johnson v. People, 172 Colo.
406, 410, 473 P.2d 974, 977 (1970) (using terms interchangeably); Ruch I, ¶¶ 50, 56 (same). The Court will

App. 42
not find ineffective assistance of counsel based on such
fine, abstract distinctions. See Pozo, 746 P.2d at 527.
The Court, therefore, concludes that Mr. Miller’s
performance was not deficient at this stage and turns
to the other stage – i.e., before the providency hearing.
B.

Before the Providency Hearing

Mr. Carbutt contends that his previous attorney,
Mr. Miller, should have given a more specific advisement about the privilege against self-incrimination before he pleaded guilty. The Court disagrees.
While giving such an advisement would arguably
be best practices, the Court finds that then-prevailing
professional norms did not require it. In particular, the
Court finds that such an advisement is, at best, loosely
connected to a defendant’s decision to plead guilty. The
defendant must have the opportunity to make a reasonably informed decision about pleading guilty, and
counsel’s advice must be sufficient to give him that opportunity. Carmichael, 206 P.3d at 806. Counsel must
ensure that the defendant is able “ . . . to properly evaluate the attractiveness of [a plea] offer” and “ . . . to
make a reasonably informed decision regarding the
relative benefits of the offered plea bargain.” Carmichael, 206 P.3d at 806. Counsel should, then, advise a
defendant that if he pleads guilty, he waives the right
to remain silent as to the charged offense or offenses.
See People v. Schneider, 25 P.3d 755, 759 (Colo. 2001).
But, in pleading guilty, the defendant does not waive
his right to remain silent as to other offenses. See

App. 43
People v. Montour, 157 P.3d 489, 499 (Colo. 2007) (a
guilty plea only waives those rights that are incompatible with a guilty plea).
Here, Mr. Miller advised Mr. Carbutt of his right
to remain silent and advised Mr. Carbutt that, if he
pleaded guilty, he would waive this right as to this
case. He advised Mr. Carbutt that he would have to
participate in a sex-offense evaluation and polygraph.
Hearing Tr. 17:2-6 (Mar. 1, 2017). With this advice, Mr.
Miller ensured that Mr. Carbutt had the opportunity
to make a reasonably informed decision about pleading
guilty. The guilty plea did not affect Mr. Carbutt’s right
to remain silent more broadly, and he could make a
reasonably informed decision without more detailed
advice. Furthermore, the requested advice would have
contradicted a then-current federal court ruling. See
Von Behren I, 2015 WL 350782, at *7. The Court, therefore, finds that Mr. Miller did not perform deficiently
in advising Mr. Carbutt before the providency hearing.
Mr. Carbutt’s expert, Mr. Meyrick, offered a different opinion. But, as described above, the Court finds
that Mr. Meyrick’s testimony reflects his personal
practice and – to his credit – best practices but not the
then-prevailing professional norms. Mr. Meyrick’s testimony, therefore, is unpersuasive. See Harrington, 562
U.S. at 105. The Court, therefore, finds that Mr. Miller
did not perform deficiently in preparing Mr. Carbutt
for the providency hearing, either.

App. 44
C.

Conclusion

The Court concludes that Mr. Carbutt did not establish his claim for ineffective assistance of counsel.
His previous attorney’s performance was not deficient.
Rather, his previous attorney’s performance was consistent with then-prevailing norms and then-existing
case law. The Court, therefore, denies the Motion. Having addressing [sic] this motion, the Court addresses
the other pending motions.
Other Pending Motions
In addition to the Rule 35(c) Motion, the Court has
two other pending motions to address: Mr. Carbutt’s
“Objection to Court’s Order Dated September 26, 2016”
(or “Objection”), filed October 6, 2016, and the “Motion
to Reconsider Court’s Order Dated September 26,
2016, Denying In Part Defendant’s Motion to Vacate
Conviction and Sentence (Ineffective Assistance of
Counsel),” filed October 6, 2016. The Court addresses
each in turn.
A. Objection
Mr. Carbutt objects to Court seemingly inviting
the prosecution to request additional time to respond
within 35 days, but the prosecution did not request additional time. This objection is, therefore, moot. Mr.
Carbutt also objects to the Court’s order denying much
of the “Motion to Vacate Conviction and Sentence (Ineffective Assistance of Counsel)” without a hearing. Mr.
Carbutt argues that the Court of Appeals directed the

App. 45
court to hold a hearing on the entire motion. The Court
disagrees. The court of appeals wrote: “The case is remanded to the district court for the limited purpose of
hearing and ruling upon the motion, which shall be
done with all due speed.” Order, dated September 22,
2016 (emphasis added). By this, the court of appeals
merely ordered this Court to consider and rule upon the
motion. It did not require an evidentiary hearing on
each claim. The Court, therefore, denies the objection.
B.

Motion to Reconsider

In the Motion to Reconsider, Mr. Carbutt argues
that the Court misunderstood his argument that Mr.
Miller promised him a certain sentence. The Court is
not persuaded that Mr. Carbutt made this argument in
the original motion. There, Mr. Carbutt wrote:
Previous counsel advised the Defendant that
because of his “clean record” he would be “getting probation” unless he was a high risk offender. This advisement was baseless and
completely erroneous. It was, however, the
reason for the Defendant’s acceptance of the
plea offer and his plea of guilty to Added
Count 16. Previous counsel should have advised the Defendant that he would not receive
Probation. If so advised, the Defendant would
not have pled guilty.
Rule 35(c) Motion, at para. 6(m) (emphasis added). The
Court construed this paragraph as “object[ing] to his
previous attorney’s opinion and the likelihood of certain sentences” and not as “alleg[ing] that he was

App. 46
promised a certain sentence . . . .” Order, at pg. 3 (Sept.
26, 2016). The Court concludes that this characterization is correct. But, even if the Court agreed with Mr.
Carbutt, the Court would find that Mr. Carbutt’s argument is clearly refuted by the record and Mr. Carbutt’s
filings. Mr. Miller does not say that he promised Mr.
Carbutt any sentence in his affidavit (filed on June 30,
2016). During the providency hearing, Mr. Carbutt told
the court that no one promised him any particular sentence. Hearing Tr. 13:6-13 (Oct. 16, 2015). And, in his
Rule 11, he acknowledged: “I know that the sentence is
imposed by the court. The Court is not bound by any
promises made by anyone concerning sentencing. Any
promises or agreements made to me with respect to the
sentence that are not set forth in this document are
invalid.” (p. 8). The plea agreement did not suggest that
the Court would be limited to imposing probation (or
any other sentence). The Court, therefore, concludes
that, as an alternative basis for its ruling, Mr. Carbutt’s argument is clearly refuted by the record.
Mr. Carbutt also claims that the Court misread his
allegations about his previous attorney’s failure to litigate motions. The Court correctly noted that Mr. Carbutt only identified one specific motion that his
previous attorney did not file. But, in addition to considering this specific motion, the Court also addressed
“[the] broader allegation that his previous attorney
was deficient for failing to file any motions at all.” The
Court reasoned: “The previous attorney’s failure to file
motions, therefore, is not surprising given the case’s
posture. Furthermore, Mr. Carbutt has not identified

App. 47
motions that would make it necessary for his attorney
to bring the case to a stage where he could file motions.” Order, at pg. 7 (Sept. 26, 2016). Therefore, the
Court addressed and denied Mr. Carbutt’s arguments.
Mr. Carbutt claims that his attorney did not spend
sufficient time on the case. The Court rejected this contention without a hearing, relying on the plea colloquy,
but also citing eight letters that Mr. Miller sent to Mr.
Carbutt. Mr. Carbutt now asserts that these letters did
not relate to this case, but to an unrelated and ongoing
DHS investigation. The Court disavows any reliance
on the letters and relies solely on the plea colloquy and
the record.
Mr. Carbutt also argues that the Court should
have advised Mr. Carbutt that he would die in prison.
Mr. Carbutt did not raise this argument in his original
pleadings. But, Mr. Carbutt is incorrect on the merits.
At the Rule 11 hearing, the Court need only advise Mr.
Carbutt of the sentencing range. The Court did that.
Order
IT IS THEREFORE ORDERED THAT the Defendant’s remaining claim in his “Motion to Vacate
Conviction and Sentence (Ineffective Assistance of
Counsel) *Filed Under Seal*” (or the “Motion”), filed
June 30, 2016, is DENIED.
IT IS FURTHER ORDERED THAT the Defendant’s “Objection to Court’s Order Dated September 26,
2016,” filed October 6, 2016, is DENIED.

App. 48
IT IS FURTHER ORDERED THAT the Court
grants the Defendant’s “Motion to Reconsider Court’s
Order Dated September 26, 2016, Denying In Part Defendant’s Motion to Vacate Conviction and Sentence
(Ineffective Assistance of Counsel),” filed October 6,
2016, in part. Specifically, the Court clarifies its September 26, 2016 Order, so that, first, if the Defendant’s
argument in paragraph 6(m) is construed as alleging a
promise, then that argument is clearly refuted by the
records; and, second, the Court disavows any reliance
on Mr. Miller’s letters and relies solely on the plea colloquy and record.
IT IS FURTHER ORDERED THAT the Defendant’s “Motion to Reconsider Court’s Order Dated September 26, 2016, Denying In Part Defendant’s Motion
to Vacate Conviction and Sentence (Ineffective Assistance of Counsel),” filed October 6, 2016, is otherwise
DENIED.
Done this April 3, 2017.
By the Court:
/s/ Michael A. Gonzales
Michael A. Gonzales,
District Judge

App. 49
DATE FILED:
District Court, Conejos
September 27, 2016 9:52 AM
County, State of Colorado
Address: 6683 County Rd. 13, CASE NUMBER: 2015CR49
P.O. Box 128, Conejos, CO
▲ COURT USE ONLY ▲
81129
Phone No.: 719-376-5465
Plaintiff:
Case No: 2015CR49
PEOPLE OF THE
STATE OF COLORADO Division 2
v.
Defendant:
OLIVER RAY CARBUTT
Order: Denying in Part, Granting in Part the
Defendant’s Motion to Vacate Conviction and
Sentence (Ineffective Assistance of Counsel)
THIS MATTER comes before the Court on the
Defendant Oliver Ray Carbutt’s Motion to Vacate Conviction and Sentence (Ineffective Assistance of Counsel) (or the “Motion”), filed June 30, 2016, and on the
Court of Appeals’ Order granting a limited remand
to resolve this motion, which was entered on September 22, 2016. The Defendant is represented by Joseph
Saint-Veltri, Esq., and Kelly C. Cherry, Esq.
INTRODUCTION
In the Motion, the Defendant contends that his
previous attorney provided ineffective assistance by
failing to adequately advise him about the plea offer,
by failing to conduct an adequate investigation, by failing to litigate motions, and by performing deficiently

App. 50
in numerous other ways. In particular, the Defendant
alleges that his previous attorney provided ineffective
assistance of counsel by failing to advise him of his
privilege against self-incrimination during the sexoffense evaluation. On these grounds, he requests an
evidentiary hearing under Rule 35(c). The Court concludes that the Defendant’s allegations must be denied
without a hearing, with one exception—namely, the
Defendant’s allegation that his previous attorney
failed to advise him of his privilege against self-incrimination during the sex-offense evaluation process.
RULE 35(C) MOTIONS
Under Rule 35(c), the Court considers challenges
that a “conviction was obtained or sentence imposed in
violation of the Constitution or laws of the United
States or the constitution or laws of this state. . . .”
Crim. P. 35(c)(2)(II). A trial court may deny a Crim. P.
35(c) motion without conducting an evidentiary hearing where the motion, the files, and the record clearly
establish that the defendant is not entitled to relief.
Ardolino v. People, 69 P.3d 73, 77 (Colo. 2003). Thus, a
trial court may summarily deny a Crim. P. 35(c) motion
if (I) the defendant’s allegations are bare and conclusory in nature; (2) the allegations, even if true, do not
warrant postconviction relief; or (3) the record refutes
the defendant’s claims directly. People v. Venzor, 121
P.3d 260, 262 (Colo. App. 2005); see generally People v.
Duran, 2015 COA 141, ¶ 9, reh’g denied (Feb. 18, 2016).
If the court does not deny a Rule 35(c) Motion without
a hearing and if the Defendant is represented by

App. 51
counsel, “the court shall direct the prosecution to respond to the defendant’s claims or request additional
time to respond within 35 days and the defendant to
reply to the prosecution’s response within 21 days.”
Crim. P. 35(c)(3)(V).
ANALYSIS
In his Rule 35(c) Motion, the Defendant contends
that his previous attorney provided ineffective assistance of counsel. Criminal defendants are entitled to
the effective assistance of counsel in negotiating a plea
agreement or entering a guilty plea. Lafler v. Cooper,
132 S. Ct. 1376, 1384 (2012); People v. Corson, 2016 CO
33, ¶ 32. A defendant must establish (1) that defense
counsel’s performance was deficient, and (2) that the
deficient performance prejudiced the defense. See Strickland v. Washington, 466 U.S. 668, 697; Corson, ¶ 34. If
the defendant does not prove either prong, a court may
deny an ineffective assistance claim without addressing the other prong. See Strickland, 466 U.S. at 697,
104 S.Ct. 2052; People v. Vicente-Sontay, 2014 COA
175, ¶ 21, 361 P.3d 1046, 1051, cert. denied, No.
15SC113, 2015 WL 6662105 (Colo. Nov. 2, 2015).
Here, the Defendant primarily contends that his
previous attorney provided ineffective assistance of
counsel in two ways. First, he argues that his previous
attorney did not provide an adequate advisement of
probable sentences and sentencing exposure under the
plea offer. See Motion, at ¶¶ 20-23. Second, he argues
that his previous attorney did not properly investigate

App. 52
this case or litigate motions. See Motion, at ¶¶ 25-29.
In addition to these two lines of argument, the Defendant includes a laundry list of grounds in his motion.
See Motion, at ¶ 6. Some of these grounds do not fit
neatly within the two main arguments, and the Court
addresses them separately.
I.

PREVIOUS ATTORNEY’S ADVISEMENTS ABOUT
SENTENCE EXPOSURE AND THE PROBABLE SENTHE

TENCE

The Defendant argues that, in advising him about
sentence exposure and the probable sentence, his previous attorney’s performance was deficient in numerous ways. See Motion, at ¶ 6(b), (c), (d), (g), (h), (i), (j),
(k), (m), (q). Broadly, his attorney’s advice can be divided into two categories. On the one hand, the attorney allegedly provided erroneous advice about the
likely sentence. On the other hand, the attorney allegedly provided incorrect advice about the sentence exposure.
A. Is the Defendant entitled to a hearing on his
claim that his previous attorney provided
erroneous advice about the likely sentence?
The Court concludes that the Defendant is not
entitled to a hearing on his claim that his previous attorney provided erroneous advice about the likely sentence. An attorney’s “promise as to the sentence to be
imposed, rather than an expression of opinion only,
may constitute such ineffective assistance”; however,
an attorney’s “erroneous assessment of a probable

App. 53
sentence does not constitute ineffective assistance of
counsel.” People v. DiGuglielmo, 33 P.3d 1248, 1251
(Colo. App. 2001); see also People v. Zuniga, 80 P.3d 965,
973 (Colo. App. 2003) (“[A]bsent a showing of a deliberate misrepresentation that induced a defendant’s
guilty plea, counsel’s erroneous assessment concerning
sentencing does not constitute ineffective assistance of
counsel.”).
Here, the Defendant contends his attorney advised him of the likely sentence in two places. He asserts his previous attorney “advised [him] that because
of his ‘clean record’ he would be ‘getting probation,’ unless he was a high risk offender.” Motion, at ¶ 6(m). In
addition, the Defendant contends his previous attorney “failed to explain . . . the probability of him being
released on parole, or any details as to his parole eligibility as a sex offender.” Motion, at ¶ 6(q). In neither
case does the Defendant allege that he was promised
a certain sentence; instead, he objects to his previous
attorney’s opinion about the likelihood of certain sentences. Therefore, the Defendant’s allegations, even
if true, would not constitute ineffective assistance of
counsel, and he is not entitled to a hearing on these
allegations.
B. Is the Defendant entitled to a hearing on his
claim that his previous attorney provided
erroneous advice about the sentence exposure?
The Court concludes that the Defendant is not
entitled to a hearing on his claim that his previous

App. 54
attorney provided erroneous advice about the sentence
exposure. Assuming the previous attorney’s advice
about the sentence exposure was deficient, the Court
concludes that the Defendant cannot show that the deficient advice prejudiced him. To establish prejudice,
“the defendant must show that there is a reasonable
probability that, but for counsel’s errors, he would not
have pleaded guilty and would have insisted on going
to trial. . . .” People v. Corson, 2016 CO 33, ¶ 35; People
v. Vicente-Sontay, 2014 COA 175, ¶ 20, 361 P.3d 1046,
1051. In evaluating a defendant’s arguments, the
Court conducts an objective inquiry. See Corson, ¶ 35.
The court can compare the possible sentence exposure
at trial with the sentence exposure under a proffered
plea agreement. Id. In addition, the court can compare
the actual sentence exposure under a proffered plea
agreement with the sentence exposure as represented
by counsel. Cf. Carmichael v. People, 206 P.3d 800, 807
(Colo. 2009) (comparing represented exposure at trial
and actual exposure at trial).
In this case, the sentence exposure at trial was significant. At trial, the Defendant could have been convicted of fifteen counts—five counts of Sexual Assault
on a Child by One in a Position of Trust, under C.R.S.
18-3-405.3(1), (2)(b); five counts of Sexual Assault on a
Child – Pattern of Abuse, under C.R.S. 18-3-405(1),
(2)(d); and five counts of Aggravated Incest, under
C.R.S. § 18-6-302(1)(b). In calculating the Defendant’s
sentencing exposure, the Court notes the following:
•

These offenses are all “sex offenses.” See C.R.S.
§ 18-1.3-1003(5)(a)(IV), (V), (VIII). Thus, for each

App. 55
offense, the Defendant faced an indeterminate
sentence with a maximum sentence of life and
a minimum sentenced [sic] fixed by the presumptive range for non-sex offenses. See
C.R.S. § 18-1.3-1004(1)(a); Vensor v. People,
151 P.3d 1274, 1280 (Colo. 2007).
•

These offenses are all class three felonies, and
the presumptive range is four to twelve years.
For each offense, the sentence could be as low
as 2 years, if the Court found mitigating circumstances, or as high as 24 years, if the court
found aggravating circumstances. See C.R.S.
§ 18-1.3-401(1)(a)(V)(A), (6).

•

These offenses involve five different victims. If
convicted of all offenses, the Defendant faced
the possibility of consecutive sentences for
five class three felonies. See People v. Torrez,
2013 COA 37, ¶ 32, 316 P.3d 25, 32 (discussing
consecutive sentencing).

Therefore, at trial, the Defendant would have faced the
possibility of five consecutive, indeterminate sentences
of 24 years to life—a sentence of 120 years to life in
total.
In contrast, the sentence exposure under the plea
agreement was much lower. Under the plea agreement,
the Defendant pleaded guilty to Added Count 16 – Sexual Assault on a Child – Victim less than 15, under
C.R.S. § 18-3-405(1), a class four felony. By pleading
guilty to this offense, the Defendant exposed himself
to a sentence as high as 12 years to life. See C.R.S.
§ 181.3-1004(1)(a); see also C.R.S. § 18-1.3-401(1)(a)(V)(A),
(6). In light of this extreme disparity between the

App. 56
possible sentence after trial and the possible sentence
under the plea agreement, the Court concludes that
this disparity cannot serve as the objective basis for
establishing prejudice.
In addition, the Defendant cannot establish prejudice by comparing the actual sentence exposure under
the plea agreement with the sentence exposure as represented by counsel. Cf. Carmichael 206 P.3d at 807.
When prejudice is derived from counsel’s advice, the
Court must consider whether its advisements cured
the prejudice. See People v. Morones-Quinonez, 2015
COA 161, ¶ 18; People v. DiGuglielmo, 33 P.3d 1248,
1251 (Colo. App. 2001) (allowing court to clarify discrepancies between Rule 11 form and advice, either
from it or defense counsel). In considering its advisements, the Court must bear in mind that “counsel’s affirmative misrepresentation cannot be cured by a court
advisement as easily as counsel’s failure to advise.”
Morones-Quinonez, ¶ 18.
The Court, therefore, begins by comparing the actual sentence exposure to counsel’s advice. As to the
actual sentence exposure under the plea agreement,
the Defendant faced a sentence as high as 12 years to
life, as described above. As to the sentence exposure
represented by counsel, the Defendant appears to contend that his previous attorney provided inconsistent
advice: “Previous counsel alternatively advised the Defendant that he was subject to a DOC sentence of: 2-6
years DOC; a maximum sentence of 8 years; and a
maximum sentence of 32 years.” Motion ¶ 6(j). Thus,
the Defendant has alleged a discrepancy between the

App. 57
actual sentence exposure and his previous attorney’s
advice, and, therefore, the question becomes whether
the Court’s advisements cured the prejudice.
At the providency hearing, the Court explicitly corrected two of the previous attorney’s misunderstanding [sic]. First, the Court discussed the possibility that
the Defendant was pleading guilty to a crime of violence, and made it “clear” that he was not. See Hearing
Tr. 4:18-24 (Oct. 16, 2015) (Exhibit 4 to Motion to Withdraw Guilty Plea, filed Apr. 15, 2016). Second, the
Court concluded that, because it was not a crime of violence, it was not an extraordinary risk crime. See
Hearing Tr. 4:10-11, 18-24 (Oct. 16, 2015). In addition,
the Court advised the Defendant of the nature of an
indeterminate life sentence on at least three occasions.
See Hearing Tr. 5:14 to 6:17; 6:23 to 7:23;15:8-22 (Oct.
16, 2015). Indeed, after the Court advised the Defendant that he faced “probation for the remainder of [his]
natural life,” the Defendant answered: “I understood
that now.” Id. at 7:4-8. The Defendant’s response shows
that, despite his counsel’s advice, he “now” understood
the indeterminate life sentence.
Furthermore, the Court gave the Defendant several opportunities to seek clarification, but he did not.
Assuming the Defendant’s previous attorney provided
advice that was markedly different from the Court’s
advisement, the Defendant should have sought clarification. Cf. DiGuglielmo, 33 P.3d at 1251 (“If a defendant receives advice, either from counsel or the
providency court, that is different from the information
contained in the written plea documents, he or she

App. 58
must request clarification from the court when given
an opportunity to do so, rather than assert as the basis
for postconviction relief that he or she was confused at
the providency hearing.”). But, the Defendant, instead,
repeatedly indicated that he understood the sentence
exposure.
The Court, therefore, concludes that its advisement cured any prejudice associated with the previous
attorney’s deficient advice about the sentence exposure. In reaching this conclusion, the Court, again,
acknowledges that “counsel’s affirmative misrepresentation cannot be cured by a court advisement as easily
as counsel’s failure to advise.” Morones-Quinonez, ¶ 18.
But, in light of the Court’s lengthy advisement and the
Defendant’s responses, the Court concludes that its advisement cured any prejudice in this case.
In summary, the Defendant could not establish
prejudice by comparing the sentence exposure at trial
with the sentence exposure under a proffered plea
agreement, because he would have faced a significantly larger sentence at trial. In addition, the Defendant could not establish prejudice by comparing the
actual sentence exposure under a proffered plea agreement with the sentence exposure as represented by
counsel, because the Court’s thorough advisement and
the Defendant’s responses show that he understood
the range of possible sentences. For these reasons, the
Defendant did not allege any facts that, if true, show
that he was prejudiced by his attorney’s deficient advice. The Court, therefore, denies this claim without an
evidentiary hearing.

App. 59
C. Conclusion
The Defendant’s previous attorney did not provide
ineffective assistance of counsel when he advised the
Defendant about the likely sentences. Even assuming
the Defendant’s allegations about these advisements
are true, such advisements do not constitute ineffective assistance of counsel. The Defendant is not entitled to relief on the grounds that his previous attorney
provided incorrect advisements about his sentence
exposure. The Court assumes that the previous attorney’s advisements fell below the standard of competence, but, even under that assumption, the Defendant
cannot show that the incorrect advisements prejudiced
him. The Court, therefore, denies these portions of the
Motion without a hearing, and turns to the Defendant’s arguments that his previous attorney did not
properly investigate this case or litigate motions.
II.

THE PREVIOUS ATTORNEY’S FAILURE TO LITIGATE
MOTIONS OR INVESTIGATE

The Defendant argues that his previous attorney
was ineffective because he did not litigate any pretrial
motions and because he did not conduct any investigation. The Defendant requests a hearing on both claims.
A. Is the Defendant entitled to a hearing on his
claim that counsel was ineffective because
he did not litigate motions?
The Court concludes that the Defendant is not entitled to a hearing on his claim that his previous

App. 60
attorney “failed to file any pretrial motions or litigate
any legal issues whatsoever in the case. . . .” see Motion, at ¶ 6(f ). An attorney’s failure to litigate motions
is analyzed under the same two-prong test described
above. See Kimmelman v. Morrison, 477 U.S. 365, 375
(1986) (motion to suppress); People v. Vicente-Sontay,
2014 COA 175, ¶ 23 (motion to suppress); Maymon v.
State, 870 N.E.2d 523, 527 (Ind. Ct. App. 2007) (motion
to sever). But, Colorado courts have clarified how to analyze an ineffective-assistance-of-counsel claim where
counsel failed to litigate a motion to suppress. See People v. Chipman, 2015 COA 142, ¶ 54; Vicente-Sontay,
¶ 23. In these cases, the courts have held “the defendant must prove that the suppression claim was ‘meritorious’ and that there is a reasonable probability that
the verdict would have been different absent the excludable evidence.” Vicente-Sontay, ¶ 23.
Here, the Defendant identifies a single motion
that his previous attorney should have filed—namely,
a motion challenging “the acquisition of legal documents sent to the Defendant by previous Counsel
which were purloined from the Defendant and provided to the District Attorney.” Motion, at ¶ 6(f ). The
Defendant elaborated on this motion as follows:
[P]revious counsel never addressed the fact
that at least eight letters from previous counsel to Mr. Carbutt, some with attachments,
became part of the District Attorney’s Rule
16 discovery packet. The fact that the District Attorney somehow acquired these privileged letters without counsel’s or defendant’s

App. 61
permission should have been the subject of a
motion for resolution by this Honorable Court,
rather than simply being ignored.
Motion, at ¶ 25, n.2. The Defendant is not certain how
the district attorney came to possess these letters, but
he suggests “[p]resumably, the Defendant’s wife sent
the documents to the District Attorney.” Motion, at
¶ 6(f ).1 The Defendant does not indicate what kind of
relief his previous attorney should have sought.
The Court assumes that the previous attorney
could have filed a meritorious motion to suppress the
letters and have them returned. See, e.g., Floyd v. Coors
Brewing Co., 952 P.2d 797, 807 (Colo. App. 1997), rev’d
on other grounds, 978 P.2d 663 (Colo. 1999) (noting
that trial court suppressed privileged documents). But,
even with this assumption, the Defendant has not explained how the failure to file such a motion prejudiced
him. For example, the Defendant does not assert that
these letters contained evidence that the district attorney used in plea negotiations or intended to introduce
at trial. More broadly, the Defendant does not explain
how this motion would have affected the outcome of
the case. Therefore, even assuming that the motion
would have been meritorious, the Defendant did not
set forth facts or allegations that, if true, would establish the failure to file such a motion prejudiced him.
In addition to this particular motion, the Defendant makes a broader allegation that his previous
1

These letters are not included in the Court’s file, and the
Defendant does not give any indication as to their content.

App. 62
attorney was deficient for failing to file any motions at
all. As to this broader allegation, the Court notes the
previous attorney did not “bring the case to a posture
where motions could have been filed.” Motion, ¶ 25.
The previous attorney’s failure to file motions, therefore, is not surprising given the case’s posture. Furthermore, the Defendant has not identified motions that
would make it necessary for his attorney to bring the
case to a stage where he could file motions. The Defendant has identified only one motion and, as to that
motion, the Defendant has not shown that it would affect the case’s outcome. In this context, the Court concludes that the Defendant has not provided allegations
or facts such that, if true, they would warrant postconviction relief. The Defendant, therefore, is not entitled
to a hearing on this claim.
B. Is the Defendant entitled to a hearing on his
claim that counsel was ineffective because
he did not investigate the case?
Lastly, the Defendant argues that, in failing to investigate this case, his previous attorney’s performance was deficient because he failed to “perform any
investigation whatsoever” about the charges. Motion,
at ¶ 6(e). To provide effective assistance, an attorney
must “make reasonable investigations” or “make a
reasonable decision that makes particular investigations unnecessary.” Hutchinson v. People, 742 P.2d 875,
881 (Colo. 1987); People v. Isham, 923 P.2d 190, 196
(Colo. App. 1995). But, to establish ineffective assistance of counsel, the Defendant must also explain what

App. 63
additional investigation counsel should have done,
what the results of those efforts would have been, and
how they would have affected the outcome of the case.
See People v. Zuniga, 80 P.3d 965, 973 (Colo. App. 2003).
Here, the Defendant has not specified what his previous attorney should have done or explained how those
actions would have affected the outcome of the case.
For example, the Defendant has not identified exculpatory evidence that his previous attorney would have
discovered. Instead, the Defendant merely asserts that
the outcome would have been different. The Court,
therefore, concludes that the Defendant’s allegations
about prejudice are conclusory and, therefore, are insufficient to warrant a hearing.
C. Conclusion
The Defendant is not entitled to a hearing on his
claims that previous counsel did not litigate any pretrial motions or conduct any investigation. In each
case, the Defendant has failed to provide facts or allegations such that, if they are true, they would warrant
postconviction relief. The Court, therefore, turns to the
remaining grounds alleges [sic] in the Motion.
III. ADDITIONAL GROUNDS
In addition to the two lines of argument discussed
above, the Defendant includes a list of other grounds
in his motion. See Motion, at ¶ 6. This list includes
allegations related to the illegal sentence, negotiations for a more favorable plea, time spent with the

App. 64
Defendant, the advisement about the privilege against
self-incrimination, and the preparation for the sentencing hearing.
A. The Illegal Sentence
The Defendant alleges that “[p]revious counsel allowed the Court to impose an unmistakably illegal sentence without attempting to correct the Court either
when the illegal sentence was imposed or at any time
thereafter . . . ” Motion, at ¶ 6(a); see also id. at ¶ 6(c),
(p). The Court agrees that it initially imposed a sentence outside of the statutory range and that the Defendant did not object to the sentence. See Hearing Tr.
34:15-21, 35:13-18 (Dec. 18, 2015) (Exhibit 5 to Motion
to Withdraw Guilty Plea, filed Apr. 15, 2016). But, the
Court has addressed the illegal sentence, based on the
Defendant’s motion. See Order: Granting in Part and
Denying in Part Defendant’s Motion to Withdraw Plea
of Guilty Pursuant to Rule 35(a). The Court, therefore,
concludes that its order cured any prejudice associated
with the previous attorney’s failure to object or otherwise motion to correct the sentence. See Peterka v.
State, 2015 ND 156, ¶ 28, 864 N.W.2d 745, 757 (holding
that defendant could not establish prejudice prong
when attorney did not assist defendant in filing motion
to correct illegal sentence, when defendant filed motion
pro se, and when district court corrected the sentence).
The Court, therefore, denies this claim for relief without a hearing.

App. 65
B. Negotiations for a More Favorable Plea
The Defendant alleges that previous counsel provided ineffective assistance because “[p]revious counsel did not attempt to negotiate a plea as to which
there would have been a determinate sentence, an established practice among competent criminal law practitioners.” Motion, at ¶ 6(d). Still, the Defendant must
allege prejudice—specifically, he must allege that butfor counsel’s deficient negotiations, he would not have
pleaded guilty and would have insisted on going to
trial. See Corson, ¶ 35. In other jurisdictions, Courts
have recognized that alleging “counsel should have negotiated a better plea agreement” does not imply that
“but for the allegedly deficient plea agreement a defendant would have gone to trial.” United States v.
Lane, No. 1:03 CR 05, 2005 WL 2304754, at *4 (N.D.
Ind. Sept. 20, 2005); see also Tanner v. United States,
No. 2:04-CR-80, 2010 WL 148312, at *4 (N.D. Ind. Jan.
12, 2010). Here, the Defendant does not connect his attorney’s alleged failure to seek a determinate sentence
with his decision to accept the plea. Instead, the Defendant connects his attorney’s advisements about his
sentence exposure with his decision to plead guilty.
Therefore, the Defendant has not provided any allegations that, if true, would show that he was prejudiced
by his attorney’s allegedly deficient performance.
C. Time Spent with the Defendant
The Defendant, next, alleges that his previous
attorney provided ineffective assistance because the

App. 66
attorney did not spend enough time on the case. Specifically, the Defendant alleges that, “[a]fter consulting
with the Defendant for approximately one hour outside
the courtroom on that date, previous counsel prepared
Rule 11 paperwork, went over the paperwork with the
defendant, and proceeded to enter his plea of guilty.”
Motion, at ¶¶ 6(h), 21. The Defendant argues that “former counsel did not discuss any defense strategy whatsoever with [him]” and “estimates that the total time
spent with previous counsel on the case, from start to
finish, was six hours.” Id. at ¶¶ 25, 26. The Defendant
asserts that he will testify that, among other things,
“he did not have adequate time to discuss this matter
with his attorney prior to entering into a guilty
plea. . . .” Id. at ¶ 26.
The Court concludes that these allegations are inconsistent with other allegations in the Motion and
other facts in the record. Most importantly, the Court
had addressed his attorney’s performance during the
providency hearing, after it had advised the Defendant
of the possible penalties and the elements of Added
Count 16:
THE COURT:

Now, you have had the chance
to discuss all this with [attorney’s name omitted], your attorney?

DEFENDANT: We just did, yes, sir.
THE COURT:

And are you satisfied with
the help you’ve received from
him?

App. 67
DEFENDANT: Yes, sir.
THE COURT:

This is a serious plea. I want
to make sure that you understand everything you’re getting yourself into and there’s
no concerns, or no issues.
So you’re satisfied you had
enough time to discuss everything with him and what he’s
done for you?

DEFENDANT: We’ve discussed it.
THE COURT:

And you’re satisfied with all
that?

DEFENDANT: Yeah.
THE COURT:

And you’re prepared to go forward and enter this plea?

DEFENDANT: Yes, I am.
Hearing Tr. 11:18 to 12:9 (Oct. 16, 2015). The Defendant did not request any addition [sic] time with his attorney during the providency hearing or indicate that
he did not have enough time.
In addition, the Defendant alleges that his previous attorney sent him “at least eight letters” that
contained privileged material and included “attachments.” See id. at ¶ 25 n.2. Thus, the Motion shows
that his previous attorney communicated with him
outside of the face-to-face meetings. The Court must
consider these letters when assessing the extent of

App. 68
their communication. See Sartain v. State, 2012 MT
164, ¶ 25, 365 Mont. 483, 492, 285 P.3d 407, 415.
Based on the transcript and the Defendant’s allegations, the Court concludes that the record refutes the
Defendant’s claim directly, and, therefore, the Defendant is not entitled to a hearing on this claim.
D. Advisement about the Privilege Against
Self-incrimination
The Defendant alleges that his previous attorney
did not properly advise him of his privilege against
self-incrimination during the PSIR interview:
Previous counsel failed to advise the Defendant that he had a privilege against self-incrimination when undergoing interviews with
the probation department and/or other professionals in conjunction with the preparation of
the Offense Specific Evaluation and PreSentence Investigation Report. In fact, previous
counsel specifically instructed the Defendant
to answer all questions posed during the interviews because his “life was an open book.”
If the Defendant has [sic] known of his privilege against self-incrimination, he would invoked [sic] it as to numerous questions
unrelated to Count 16.Second Motion to Withdraw Plea of Guilty
(Constitutional Violation) (May 25, 2016)).
The Court concludes that, as to this allegation, the
record does not clearly establish that the defendant is

App. 69
not entitled to relief. The Fifth Amendment guarantees
that no person “shall be compelled in any criminal case
to be a witness against himself,” U.S. Const. amend. V,
XIV; see also Colo. Const. art. II, § 18. A defendant can
invoke his privilege against self-incrimination in response to questions during a sex offender evaluation.
See People v. Roberson, 2016 CO 36, ¶ 1; see also United
States v. Von Behren, 822 F.3d 1139, 1141 (10th Cir.
2016). Several jurisdictions have held that an attorney
provided ineffective assistance of counsel by failing to
advise the defendant of his Fifth Amendment right at
the time of participation in the sex-offense evaluation.
See, e.g., Estrada v. State, 143 Idaho 558, 564, 149 P.3d
833, 839 (2006); State v. Tinkham, 871 P.2d 1127, 1131
(Wash. App. 1994). The Court, therefore, cannot deny
this claim without a hearing, and directs the prosecution to either respond [sic] this claim or request additional
time to respond within 35 days. Crim. P. 35(c)(3)(V).
E. Preparation for the Sentencing Hearing
The Defendant alleges that his previous attorney
did not adequately prepare for the sentencing hearing
in several ways: First, “[p]revious Counsel did not discuss the PSIR with the Defendant before sentencing or
prepare any meaningful sentencing presentation,” Motion, at ¶ 6(n); and second, “[p]revious counsel did not
call an expert witness to testify at sentencing relative
to the inconsistent findings in the PSIR”—namely, the
“low-risk evaluation results,” appropriateness of community supervision, and the recommended “lengthy
prison sentence” id at ¶ 6(o). But, in making these

App. 70
allegations, the Defendant does not give any indication
as to how the proposed expert would testify or what
additional arguments his attorney should have made.
In addition, the Defendant does not explain how a different presentation—one including expert testimony—
would have led to a different result. The Defendant’s
conclusory assertions are insufficient to warrant a
hearing, and therefore, the Court denies these claims
without a hearing.
CONCLUSION
In his Rule 35(c) Motion, the Defendant argued
that his previous attorney provided ineffective assistance of counsel because the attorney did not provide a
meaningful advisement about the plea offer and because the attorney did not properly investigate or litigate motions. In addition to these arguments, the
Defendant provided a list of other grounds to find ineffective assistance of counsel.
As to the Defendant’s two main arguments, the
Court concluded that the Defendant was not entitled
to a hearing because the Defendant failed to allege
facts that, if true, would warrant postconviction relief.
In addition, the Court denies the list of claimed deficiencies with one exception: the Defendant’s claim that
his previous attorney provided ineffective assistance of
counsel by failing to advise him of his privilege against
self-incrimination. The Court concludes that the Defendant is entitled to a hearing on this allegation and
directs the district attorney to respond.

App. 71
In granting a hearing on this claim, the Court limits the scope of the hearing to evidence related to the
previous attorney’s advisements; the effect of his attorney’s advisements on the Defendant; the effect that a
different advisement would have had; the standard of
competence for advising defendants in advance of sexoffense evaluations; the ultimate effect on the defendant’s sentence; and other matters directly related to
the two-prong test.
IT IS THEREFORE ORDERED THAT the district attorney shall respond to the defendant’s claim
that his previous attorney provided ineffective assistance of counsel by failing to advise him of his privilege
against self-incrimination during the sex-offense evaluation, see Motion, at ¶ 6(1)within 35 days. Once the
district attorney responds, the Defendant shall file a
reply within 21 days.
IT IS FURTHER ORDERED THAT the Defendant’s Motion to Vacate Conviction and Sentence (Ineffective Assistance of Counsel), filed June 30, 2016, is
otherwise DENIED without a hearing.
Done this September 26, 2016.
By the Court:
/s/ Michael Gonzales
Michael Gonzales,
District Judge

App. 72
District Court, Conejos County,
State of Colorado
Address: 6683 County Rd. 13,
P.O. Box 128, Conejos, CO 81129
Phone No.: 719-376-5465

DATE FILED:
June 28, 2016
10:43 AM
CASE NUMBER:
2015CR49

Plaintiff: PEOPLE OF THE
STATE OF COLORADO

▲ COURT USE ONLY ▲
Case No: 2015CR49

v.
Defendant: OLIVER RAY
CARBUTT

Division 2

Order: Denying the Defendant’s Motion to
Withdraw Plea of Guilty (Constitutional Violation)
THIS MATTER comes before the Court on the
Defendant Oliver Ray Carbutt’s Motion to Withdraw
Plea of Guilty (Constitutional Violation) (or the “Motion”), filed May 25, 2016. The Defendant is represented by Joseph Saint-Veltri, Esq., and Kelly C.
Cherry, Esq. The Defendant brings this Motion and
seeks a hearing under Rule 35(c).
RULE 35(C) MOTIONS
Under Rule 35(c), the Court considers challenges
that “the conviction was obtained or sentence imposed
in violation of the Constitution or laws of the United
States or the constitution or laws of this state. . . .”
Crim. P. 35(c)(2)(II); see Collier, 151 P.3d at 670. The
Court may deny a Rule 35(c) motion without a hearing,
when the motion, files, and record clearly establish
that the defendant is not entitled to relief. See White v.

App. 73
District Court, 766 P.2d 632 (Colo. 1988); People v.
Flagg, 18 P.3d 792, 795 (Colo. App. 2000). The purpose
of holding a hearing is “to receive evidence pertinent to
allegations that cannot be disposed of by reference to
the trial record alone.” People v. Fernandez, 53 P.3d 773,
775 (Colo. App. 2002). This purpose would not be fulfilled by requiring a hearing when the record alone
demonstrates that the motion should be denied. Id.
DISCUSSION
In his Rule 35(c) Motion, the Defendant argues
that he should be permitted to withdraw his guilty
plea, because (1) this Court violated his right against
self-incrimination by ordering him to complete a sexoffense evaluation and because (2) the Court did not
advise him of his right against self-incrimination. The
Court addresses each argument in turn.
I.

THE FIFTH AMENDMENT RIGHT

AGAINST

SELF-

INCRIMINATION

A. Applicable Law
The Fifth Amendment guarantees that no person
“shall be compelled in any criminal case to be a witness
against himself,” U.S. Const. amend. V. This Fifth
Amendment right against self-incrimination applies
to communications only if they are testimonial. See
United States v. Von Behren, No. 15-1033, 2016 WL
2641270, at *4 (10th Cir. May 10, 2016). The right
against self-incrimination extends beyond criminal trials to “official questions put to [a defendant] in any

App. 74
other proceeding, civil or criminal, formal or informal,
where the answers might incriminate him in future
criminal proceedings.” People v. Ruch, 2016 CO 35, ¶ 20
(quoting Lefkowitz v. Turley, 414 U.S. 70, 77 (1973)).
In general, the right against self-incrimination is
not self-executing, and a person must invoke it. See
Salinas v. Texas, 133 S. Ct. 2174, 2179, 186 L. Ed. 2d
376 (2013); People v. Elsbach, 934 P.2d 877, 881 (Colo.
App. 1997). But, a person’s failure to invoke is excused
when the person is compelled to forgo his right against
self-incrimination. See Salinas, 133 S. Ct. at 2180;
Minnesota v. Murphy, 465 U.S. 420, 434 (1984). A person is so compelled when the state threatens to impose
“substantial penalties” for electing to exercise the Fifth
Amendment right against self-incrimination. See Murphy, 465 U.S. at 434; United States v. Von Behren, No.
15-1033, 2016 WL 2641270, at *7 (10th Cir. May 10,
2016).
B. Analysis
Initially, the Court concludes that the Defendant’s
statements during the pre-test examination were testimonial communications within the scope of the Fifth
Amendment. See Von Behren, 2016 WL 2641270, at *4.
In addition, the Court concludes that, during the pretest examination, he was asked some questions that
called for incriminating responses. See id. at *5. But,
because the Defendant did not invoke his right against
self-incrimination, the Defendant’s Fifth Amendment
rights were not violated unless the government

App. 75
threatened to impose substantial penalties for electing
to exercise his right against self-incrimination. See
Murphy, 465 U.S. at 434; Von Behren, 2016 WL
2641270, at *4. In determining whether the Defendant
was so threatened, the Court finds the decisions in
Minnesota v. Murphy and United States v. Von Behren
instructive.
In Minnesota v. Murphy,1 the United States Supreme Court considered whether a defendant was compelled to provide incriminating answers to his
probation officer. 465 U.S. at 434-39. The court reasoned that the state could require a defendant to appear and discuss matters related to his probationary
status without compelling him to provide incriminating information. Id. at 435. But, the court also reasoned
that, if the state threatened to revoke his probation for
invoking his right against self-incrimination, then this
would have created a “classic” penalty that would excuse the requirement of invoking the right. Id. The
court ultimately concluded that there was no such
threat in that case. Id. at 438. Neither the lower court
nor the probation officers threatened to penalize the
defendant for invoking his right against self-incrimination. Id. at 437-38. Although the lower court required the defendant to appear and answer truthfully,
the lower court “did not attempt to define the precise
contours of [the defendant’s] obligation to respond to
1

Murphy is the leading United States Supreme Court case
on compulsion. See Von Behren, 2016 WL 2641270, at *7-9 (discussing Murphy); Roberson, ¶¶ 34-40 (same); Ruch, ¶¶ 29-30
(same).

App. 76
questions.” Id. at 437. Indeed, “[the probation conditions] said nothing about his freedom [sic] decline to answer particular questions and certainly contained no
suggestion that his probation was conditional on waiving his Fifth Amendment privilege with respect to further criminal prosecution.” Id. On these facts, the United
States Supreme Court declined to “read into the truthfulness requirement an additional obligation that [the
defendant] refrain from raising legitimate objections
to furnishing information that might lead to his conviction for another crime.” Id. The court concluded: “If
[the defendant] did harbor the belief that his probation
might be revoked for exercising the Fifth Amendment
privilege, that belief would not have been reasonable.”
Id. at 438. As a consequence, the government did not
compel the defendant to provide incriminating information, the defendant was not excused from invoking
his right against self-incrimination, and the court ultimately found that this right was not violated.
In United States v. Von Behren, the Tenth Circuit
considered whether a defendant was compelled to
provide incriminating statements during a polygraph
examination. There, the lower court ordered the defendant to complete asexual history polygraph over the
defendant’s objection. Von Behren, 2016 WL 2641270,
at *3. Specifically, the defendant objected to four questions that sought incriminating answers – indeed,
three of the questions sought the admission of a felony. Id. at *5. If the defendant refused to answer on
Fifth Amendment grounds, he would be removed him
[sic] from a sex-offender treatment program, and the

App. 77
government threatened to have him remanded to
prison. 2016 WL 2641270, at *7, 8. In light of this
threat, the Tenth Circuit concluded that the case was
“an easy one.” Id. “The government’s threat constituted
compulsion within the meaning of the Fifth Amendment.” Id. Thus, unlike Murphy, the government had
threatened to penalize the defendant for invoking his
right against self-incrimination, and the Tenth Circuit
ultimately concluded that the defendant’s right was violated.
Here, the Defendant contends that he was compelled to provide incriminating information by the
Court’s order to complete a sex-offense evaluation,
which included a sexual history polygraph examination. Specifically, the Court advised the Defendant:
What will happen is, I’ll accept your plea today, and I’ll set your case for sentencing over
in about two months. I’ll order that you complete a presentence investigation.
As a result of this plea, you’ll also have to complete a sex-offense specific evaluation. You’ll
have to meet with Mental Health Center, and
they’ll trigger different evaluations. It’s a lot
more intensive than a normal presentence investigation, so you’ll have to get all those evaluations done before you come back here.
Hearing Tr. 13:17 to 14:1 (Oct. 16, 2015). After accepting the Defendant’s guilty plea, the Court referred the
matter to probation for a presentence investigation
and a sex-offense specific evaluation. Id. at 17:9-10.

App. 78
In so doing, the Court merely required the Defendant to undergo a sex-offense evaluation. The Court
did not “define the precise contours” of the Defendant’s
obligations to answer questions during the evaluation.
Indeed, the Court did not discuss what would happen
if the Defendant were to invoke his privilege against
self-incrimination during evaluation. More to the
point, the Court did not preclude the Defendant from
invoking his right against self-incrimination or require
the Defendant to waive his right against self-incrimination. The Court did not threaten to penalize the Defendant in any way for invoking his right against selfincrimination. In effect, the Defendant asks the Court
to read an unconstitutional threat into its advisement
and order. The Court declines to do so, see Murphy, 465
U.S. at 437, and concludes that the record clearly establishes that the Court’s order did not compel him to
incriminate himself.
For the reasons just discussed, the Defendant’s
reliance on United States v. Von Behren, No. 15-1033,
2016 WL 2641270 (10th Cir. May 10, 2016) is misplaced. Unlike Von Behren, the state never threatened
to penalize the Defendant for invoking his right
against self-incrimination in this case. Without such a
threat, the Defendant was not compelled to provide incriminating information, and Von Behren does not support a different conclusion.
Because the Court concludes the record clearly
establishes that the Defendant was not compelled to
provide incriminating information and that the Defendant did not invoke his right against self-incrimination,

App. 79
the Court did not violate this right and the Court will
not hold a hearing on this claim. See Flagg, 18 P.3d at
795. The Court, therefore, turns to the Defendant’s argument that it did not properly advise him of his right
against self-incrimination.
II.

ADVISEMENT

OF

THE

RIGHT AGAINST SELF-

INCRIMINATION

A. Applicable Law
The Defendant contends that when courts order
defendants to undergo a sex-offense evaluation, the
court must advise the defendant that he may invoke
his right against self-incrimination during the evaluation. The Defendant cites Rule 11 and Von Behren in
support of his arguments. Because Von Behren does
not require – or discuss – such an advisement, the
Court turns to Rule 11.
Rule 11 is designed “to facilitate an accurate determination of adequate compliance with the constitutional requirements necessary for a valid guilty plea”
– including the constitutional requirement that a
guilty plea be entered knowingly and voluntarily. People v. Chippewa, 713 P.2d 1311, 1313 (Colo. App. 1985),
aff ’d, 751 P.2d 607 (Colo. 1988); see also People v. Dist.
Court, 868 P.2d 400, 403 (Colo. 1994). As relevant
here, “a guilty plea may be involuntary because the defendant does not understand the nature of the constitutional protections he is waiving.” Lacy v. People, 775
P.2d 1, 4 (Colo. 1989). “When a defendant pleads guilty,
he waives several important constitutional rights,

App. 80
including his privilege against self-incrimination. . . .”
Sanchez-Martinez v. People, 250 P.3d 1248, 1254 (Colo.
2011). The defendant must understand these rights for
his plea to be voluntary. See Lacy v, 775 P.2d at 4.
To ensure that a guilty plea is voluntary, Rule 11
“outlines various determinations the court must make
before accepting a guilty plea.” Sanchez-Martinez v.
People, 250 P.3d 1248, 1254 (Colo. 2011). Rule 11 does
not require the court to follow “any prescribed ritual or
script.” Craig v. People, 986 P.2d 951, 963 (Colo. 1999).
Instead, under Rule 11, the court must make “the defendant aware of his various rights . . . in terms which
are understandable to the defendant.” People v. Dist.
Court, 868 P.2d 400, 403 (Colo. 1994) (internal quotation marks omitted). Compliance with Rule 11 will
normally ensure that a guilty plea is voluntary. Id. at
404.
Rule 11(b) requires, as relevant here, that a defendant be advised that “[t]he defendant need make
no statement and any statement made can and may
be used against the defendant.” Crim. P. 5(a)(2)(I); see
also Crim. P. 11(b) (incorporating Rule 5(a)); SanchezMartinez v. People, 250 P.3d 1248, 1254 (Colo. 2011).
Rule 11(b) does not expressly require the more specific advisement that the Defendant proposes. Furthermore, the Defendant’s proposed advisement is
much broader than that required for a voluntary
guilty plea. The plea’s voluntariness hinges, in part,
on whether the defendant is advised of the rights that
he is waiving. See Lacy v, 775 P.2d at 4. In entering a
guilty plea, a defendant is not waiving his right against

App. 81
self-incrimination as to offenses other than the subject
of his guilty plea The Defendant’s proposed advisement would address the defendants’ rights that are not
implicated in his guilty plea – namely his or [sic] right
to make no statements regarding other crimes that he
may have committed and that would be part of his sexual history. Thus, the Defendant’s proposed advisement sweeps much more broadly than is required for a
voluntary plea A simpler advisement, couched in terms
which are readily understandable, will satisfy Rule 11
and ensure that the guilty plea is voluntary. Thus, Rule
11 does not require courts to advise a defendant that
he could invoke his right against self-incrimination
during a sex-offense evaluation or, more specifically,
during a polygraph examination.
B. Analysis
The Court concludes that its Rule 11 advisement
was sufficient to ensure that the Defendant’s guilty
plea was voluntary. In evaluating a Rule 11 advisement, “[t]he appropriate inquiry is whether the ‘record
as a whole’ shows that the defendant was given sufficient notice of the matter in question.” Craig v. People,
986 P.2d 951, 963-64 (Colo. 1999) (quoting People v. District Court, 868 P.2d 400, 403 (Colo. 1994)). The record
includes the plea agreement, the Rule 11 advisement
form, and the defendant’s in-court statements. Id.;
Benavidez v. People, 986 P.2d 943, 950-51 (Colo. 1999).
“[A] defendant’s in-court affirmation that he understood the matters described in the form does provide

App. 82
sufficient compliance with the rule.” Benavidez v. People, 986 P.2d 943, 950-51 (Colo. 1999).
Here, the Defendant’s Rule 11 form provides that:
f. I know I have the right to remain silent,
and not say anything or make any statement
whatsoever about my case. I know that if I do
choose to make any statement, that statement
could be used against me in court.
Rule 11 Form, ¶ 5(f ) (Oct. 16, 2015). The Defendant initialed next to this paragraph. Id. The Rule 11 form
was discussed at the providency hearing:
THE COURT:

I have before me this
Rule 11 advisement,
and it looks like you
went through and initialed on the various
paragraphs that related
to you. You’ve also
signed it on towards the
last page, along with
your attorney.
Did you read it?

THE DEFENDANT: Yes, sir.
THE COURT:

And do you understand
the rights in this document? Do you understand all the rights in
this document?

App. 83
THE DEFENDANT: Yes, I do.
THE COURT:

You understand specifically the rights you’re
giving up by pleading
guilty today?

THE DEFENDANT: Yes. We went through it
several times.
THE COURT:

Do you have any questions about any of these
rights?

THE DEFENDANT: No, sir, I do not.
THE COURT:

Is this decision to enter
this plea today, is it
your own free choice?

THE DEFENDANT: Yes, sir, it is.
THE COURT:

Has anybody forced you
in any way to enter this
plea?

THE DEFENDANT: No, sir, they have not.
Hearing Tr. 12:10 to 13:5 (Oct. 16, 2015). After further
advisements, the Defendant pleaded guilty. See id. at
15:23 to 16:2.
Having reviewed the record as a whole, the Court
concludes that the Defendant was properly advised of
his right against self-incrimination under Rule 11. In
this case, Rule 11 is satisfied by the Rule 11 form and
the defendant’s acknowledgement that he understood the rights described in the form. As the Colorado Supreme Court explained, “a defendant’s in-court

App. 84
affirmation that he understood the matters described
in the form does provide sufficient compliance with the
rule.” Benavidez, 986 P.2d at 950-51. The Court, therefore, concludes that the Defendant was properly advised under Rule 11 and that, as is normally the case
for properly advised defendants, his guilty plea was
voluntary.
The Defendant is correct that neither this Court
nor the Rule 11 form advised him that he could exercise his right against self-incrimination during
the sex-offense evaluation or during the polygraph
examination. But, for the reasons given above, the
Court was not required to give this advisement. Instead, the Court could rely on the form’s simpler advisement, couched in terms which are readily
understandable, and on the Defendant’s acknowledgment that he understood his rights. The Court, therefore, concludes that the record clearly establishes
that the Defendant is not entitled to relief. See Flagg,
18 P.3d at 795.
IT IS THEREFORE ORDERED THAT the Defendant Oliver Ray Carbutt’s Motion to Withdraw Plea
of Guilty (Constitutional Violation), filed May 25, 2016,
is DENIED.
Done this June 28, 2016.
By the Court:
Michael A. Gonzales, District Judge

App. 85
District Court, Conejos County,
State of Colorado
DATE FILED: June 13,
Address: 6683 County Rd. 13,
2016 3:47 PM
P.O. Box 128, Conejos, CO 81129
Phone No.: 719-376-5465
▲ COURT USE ONLY ▲
Plaintiff: PEOPLE OF THE
___________________
STATE OF COLORADO
Case No: 2015CR49
v.
Division 2
Defendant: OLIVER RAY
CARBUTT
Order: Granting in Part and Denying in
Part the Defendant’s Motion to Withdraw
Plea of Guilty Pursuant to Rule 35(a)
THIS MATTER comes before the Court on the
Defendant Oliver Ray Carbutt’s Motion to Withdraw
Plea of Guilty Pursuant to Rule 35(a) (or the “Motion”),
filed April 15, 2016, and his Addendum, filed April 27,
2015. The Defendant is represented by Joseph SaintVeltri, Esq., and Kelly C. Cherry, Esq.
INTRODUCTION
In his Motion, Mr. Carbutt makes two kinds of arguments. First, he argues that he was not advised of
the possible penalties as required by Rule 11, because
the Rule 11 form contained “inaccurate, misleading,
and inconsistent information,” because the Rule 11
form did not advise him of the indeterminate sentencing range, and because the Court did not advise him
that a sentence to probation was “very unlikely.” Based

App. 86
on these deficiencies, he concludes that he is entitled
to withdraw his guilty plea The Court concludes that
the whole of the record shows that Mr. Carbutt understood the possible penalties and, therefore, the Court
denies this claim without a hearing.
Second, Mr. Carbutt contends that the Court erred
when it imposed a sentence of fifteen years to life. He
contends that the lower term could have been, at most,
six years. To support this contention, he argues that
the Court did not have the needed Blakely-compliant
or Blakely-exempt facts to impose a higher sentence;
that the sentencing statute precludes the use of any
exceptional aggravating circumstances that are not
listed in section 18-1.3-401(8)(a); that the Court did not
make the findings needed to impose a higher sentence;
that the Court foreclosed the possibility of imposing a
higher sentence at the providency hearing; and that
the applicable statutes do not permit the Court to impose a sentence of more than 12 years. The Court concludes the record establishes that it properly imposed
a sentence greater than six years, but the Court concludes that the applicable statutes do not permit the
Court to impose a sentence of more than 12 years. The
Court, therefore, corrects Mr. Carbutt’s sentence by
lowering it to 12 years and otherwise denies this claim
without a hearing.
Before discussing the merits of Mr. Carbutt’s Motion, the Court notes that he brings this Motion under
Rule 35(a). But, under Rule 35(a), the defendant can
only object to a sentence on the grounds that it is “inconsistent with the statutory scheme outlined by the

App. 87
legislature” or “imposed in excess of the court’s subject
matter jurisdiction.” People v. Wenzinger, 155 P.3d 415,
418 (Colo. App. 2006). A Motion under Rule 35(a) is not
the proper post-conviction route for challenges to the
validity of a guilty plea, see People v. Moore-El, 160 P.3d
393, 394-95 (Colo. App. 2007); or a constitutional challenge to an aggravated sentence under Blakely, see
Wenzinger, 155 P.3d at 419. Instead, the proper postconviction route is a motion under Rule 35(c). See People v. Collier, 151 P.3d 668, 670 (Colo. App. 2006). In
situations such as this, courts have considered motions
brought under Crim. P. 35(a) as if they were brought
under Crim. P. 35(c). See, e.g., Wenzinger, 155 P.3d at
417-19; People v. Green, 36 P.3d 125, 126-28 (Colo. App.
2001) (concluding that the trial court properly treated
defendant’s Crim. P. 35(a) motion as a Crim. P. 35(c)
motion). Therefore, the Court treats Mr. Carbutt’s motion as if it were brought under Rule 35(c) to the extent
that its claims are not cognizable under Rule 35(a).
RULE 35(C) MOTIONS
Under Rule 35(c), the Court considers challenges
that “the sentence imposed in violation of the Constitution or laws of the United States or the constitution
or laws of this state.” Crim. P. 35(c)(2)(II); see Collier,
151 P.3d at 670. The Court may deny a Rule 35(c) motion when the motion, files, and record clearly establish
that the defendant is not entitled to relief. White v. District Court, 766 P.2d 632 (Colo. 1988); People v. Flagg,
18 P.3d 792, 795 (Colo. App. 2000). In particular, the
Court may deny a motion without a hearing when (1)

App. 88
“the claims raise only an issue of law”; (2) “the allegations, even if true, do not provide a basis for relief ”; or
(3) “the claims are bare and conclusory in nature, and
lack supporting factual allegations.” People v. Venzor,
121 P.3d 260, 262 (Colo. App. 2005). The purpose of
holding a hearing is “to receive evidence pertinent to
allegations that cannot be disposed of by reference to
the trial record alone.” People v. Fernandez, 53 P.3d 773,
775 (Colo. App. 2002). This purpose would not be fulfilled by requiring a hearing when the record alone
demonstrates that the motion should be denied. Id.
DISCUSSION
In his Rule 35 Motion, Mr. Carbutt requests a
hearing on his arguments. As described above, he argues, first, that he was not advised of the possible penalties as required by Rule 11; and, second, that the
Court erred when it imposed a sentence of fifteen years
to life. The Court addresses each set of arguments in
turn.
I.

RULE 11

Mr. Carbutt contends that the Rule 11 advisement
was insufficient because the Rule 11 form contained
“inaccurate, misleading and inconsistent information
relative to the possible penalties,” because the Rule 11
form did not explain sex offender sentencing, and because the Court did not advise Mr. Carbutt that a sentence to probation was very unlikely. The Court
disagrees, because the Court’s Rule 11 colloquy

App. 89
clarified the ambiguities in the Rule 11 form and provided the omitted information.
To ensure that courts only accept voluntary and
understanding guilty pleas, Crim. P. 11 prohibits courts
from accepting a guilty plea without first determining,
as relevant here, that the defendant understands “the
possible penalty or penalties.” Crim. P. 11(b)(4); see People v. Chavez, 730 P.2d 321, 324-25 (Colo. 1986). Thus,
the defendant must be informed of “the mandatory
minimum sentence, if any, on the charge” and “the
maximum possible sentence on the charge, including
that possible from consecutive sentences” People v.
Randolph, 175 Colo. 454, 458, 488 P.2d 203, 205 (1971)
(quoting ABA Standards of Criminal Justice Relating
to Pleas of Guilty); see also People v. Peters, 738 P.2d
395, 396 (Colo. App. 1987). The defendant must also be
informed of “consequences which have a definite, immediate, and automatic effect on the range of his punishment.” People v. Chippewa, 713 P.2d 1311, 1313
(Colo. App. 1985) aff ’d, 751 P.2d 607 (Colo. 1988); see
generally People v. Birdsong, 958 P.2d 1124, 1128 (Colo.
1998).
In evaluating a Rule 11 advisement, the question
is “whether the ‘record as a whole’ shows that the defendant was given sufficient information as to fairly be
put on notice of the matter in question.” Benavidez v.
People, 986 P.2d 943, 950 (Colo. 1999). The record includes the Rule 11 form and the court’s colloquy with
the defendant. See People v. Chavez, 730 P.2d 321, 32425 (Colo. 1986) (relying on transcript of Rule 11 colloquy, but noting “nothing in the record” undermines the

App. 90
validity of guilty plea). Courts do not “lightly” disregard the fact that “a defendant has affirmatively indicated her understanding of a matter on the record.”
Benavidez v. People, 986 P.2d 943, 950 (Colo. 1999).
Here, the Rule 11 form contained several paragraphs relevant to penalties that Mr. Carbutt faced.
The Rule 11 form contained a chart showing the following sentencing ranges for class four felonies:

App. 91

App. 92
Rule 11, at ¶ 14(h). Mr. Carbutt initialed next to both
rows. The higher row corresponds to the sentencing
range for class four felonies. See C.R.S. § 18-1.3401(1)(a)(V)(A). The lower row corresponds to the sentencing range for class four felonies that are also extraordinary risk crimes. See C.R.S. § 18-1.3-401(10)(a).
The Rule 11 form contained the following paragraph about sexual offenses:
I am aware that I am pleading guilty to a
SEXUAL OFFENSE. With my lawyer, I have
reviewed the attached documents explaining the elements of the charge I am pleading
guilty to and the potential penalties for that
sex offense. I have initialed and signed the
attached documents because I thoroughly understand them.
Rule 11, at ¶ 14(1) (italics added, bold in original). Mr.
Carbutt initialed next to this paragraph. Contrary to
this paragraph, the Rule 11 form did not include an
attachment providing information about the potential
penalties for sex offenses, although it did include an
attachment with the elements of the offense.
In a separate paragraph, the Rule 11 form describes crimes of violence, and Mr. Carbutt initialed
next to this paragraph. See Rule 11, at ¶ 14(e).
At the providency hearing, the Court began by
asking whether Mr. Carbutt was pleading guilty to an
extraordinary risk crime. Hearing Tr. 3:7 to 4:21 (Oct.
16, 2015). Mr. Carbutt believed that he was pleading
guilty to an extraordinary risk crime, because “any

App. 93
crime of violence as defined in 18-1.3-406 is an extraordinary risk crime.” Id. at 4:10-11. The Court responded:
“It’s not a crime of violence,” id. at 4:12; but followed
up with the prosecutor:
THE COURT:

Then let me be real clear
about this. [Prosecutor],
you’re not alleging that
these are crimes of violence, correct?

[PROSECUTOR]: No, Your Honor.
THE COURT:

If they’re not crimes of violence, then they don’t qualify for the extraordinary
risk crime, would be my interpretation.

Hearing Tr. 4:18-24 (Oct. 16, 2015). The Court concluded that Mr. Carbutt was not pleading guilty to a
crime of violence or an extraordinary risk crime. Id.;
see also id. at 18:17 to 19:5.
The Court, next, advised Mr. Carbutt of the applicable sentencing range and sex offender sentencing:
Mr. Carbutt, what we’re talking about is a
Class 4 felony. And sentencing with respect to
a Class 4 felony of this nature would normally
subject you to a potential prison sentence of
from 2 years to 6 years in the Department of
Corrections in the presumptive range, up to
12 years if the Court found exceptional circumstances, and 3 years of mandatory parole,
a minimum fine of $2,000, and a maximum
fine of $500,000. That would be a normal

App. 94
Class 4 felony sentencing range for a normal
Class 4 felony.
The particular crime that you’re going to
plead guilty to – and we’re going to talk about
that is a sex-related offense, which requires
the Court to impose an indeterminate sentence pursuant to C.R.S. 18-1.3-104.
And what that means is, essentially, you could
be facing an indeterminate sentence in the
Department of Corrections if the Court imposes Department of Corrections, or you could
be facing an indeterminate sentence on probation if the Court were to place you on probation.
And how that would be is, it appears that the
Court would be required – if I placed you in
the Department of Corrections, the Court
would be required to impose at least the minimum of the presumptive range all the way up
to life in prison. So what “indeterminate sentence” means is life in prison. So, in other
words, if the Court were to impose a sentence
under this sentencing scheme, it would be
from two years to six years would be the minimum that I could impose. The maximum that
you could receive would be life, or an indeterminate sentence in the Department of Corrections.
Hearing Tr. 5:14 to 6:17 (Oct. 16, 2015) (emphasis
added). The Defendant indicated that he understood
this. Id. at 6:18-19.

App. 95
The Court reiterated the importance of the indeterminate life sentence in the following exchange:
THE COURT:

. . . . And I want to make
sure you understand from
my perspective that this
is essentially as serious a
plea as I will take. Because if you face incarceration, you could be
incarcerated for the remainder of your natural
life. Do you understand
that?

THE DEFENDANT: I understand.
THE COURT:

If you are placed on probation, you could be placed
on probation for the remainder of your natural
life.

THE DEFENDANT: I understood that now.
THE COURT:

This would also require
you to be registered as a
sex offender as required
by law. Do you understand?

THE DEFENDANT: Uh-huh.
THE COURT:

All right. And, again, in
terms of my understanding, the minimum that I
could impose would be
anywhere from two to six

App. 96
years in the presumptive
range, all the way up to
your – the remainder of
your natural lifetime.
THE DEFENDANT: That’s right.
THE COURT:

Any questions about that?

THE DEFENDANT: Nope.
THE COURT:

If you were placed on parole supervision as a result of a sentence to the
Department of Corrections, you could be placed
on parole, again, for the
remainder of your natural
lifetime. All right. So
that’s what we’re talking
about.

Hearing Tr. 6:23 to 7:23 (Oct. 16, 2015). After this exchange, the Court turned to matters unrelated to the
possible penalties.
Before the Court accepted Mr. Carbutt’s guilty
plea, the Court returned to the possible penalties once
more:
THE COURT:

Now, I’ve already gone
through the potential sentence, and we’ve clarified
this is not an extraordinary risk crime. I’ve told
you that the presumptive
range sentence is from

App. 97
two to six years in the Department of Corrections,
and given the indeterminate nature of this offense
that you could be looking
at a sentence at a minimum of from two to six
years in the Department
of Corrections and up to –
and up to life, lifetime supervision. Do you understand that?
THE DEFENDANT: Right.
THE COURT:

An indeterminate amount,
again, means up to your
natural life?

THE DEFENDANT: That’s right.
THE COURT:

Any questions about that?

THE DEFENDANT: No.
Hearing Tr. 15:8-22 (Oct. 16, 2015). Following this exchange, Mr. Carbutt pleaded guilty, id. at 16:2; and the
Court found that Mr. Carbutt “underst[ood] the nature
and the consequences of the plea he’s entered and the
potential consequences of that plea.” Id. at 17:1-2.
Having reviewed the record as a whole, the Court
concludes that it properly determined that Mr. Carbutt
understood “the possible penalty or penalties” before
accepting his guilty plea. The Court acknowledges the
defects in the Rule 11 form, but the Court does not
want to overstate the form’s defects. The Rule 11 form

App. 98
included the correct sentencing range for class 4 felonies – namely, two to six years – and the correct maximum possible sentence if the Court were to find
extraordinary circumstances – namely, twelve years.
The Court’s Rule 11 colloquy identified this range as
correct, thus eliminating any ambiguity related to extraordinary risk crimes. Similarly, the Rule 11 form did
not explain sex-offense sentencing, but the Rule 11
form signaled that sex-offender sentencing needed to
be explained by indicating that there would be an attachment. The Court’s Rule 11 colloquy provided the
missing information. Thus, the Court’s Rule 11 colloquy addressed the specific defects in the Rule 11 form,
and after the Court addressed these matters, Mr. Carbutt affirmatively and repeatedly indicated that he understood the possible penalties. The Court would not
disregard his assertions lightly, and, given the care
that the Court took in ensuring that he understood, the
Court concludes that the record as a whole shows that
Mr. Carbutt understood the possible penalties.
Mr. Carbutt also argues the Court should have advised him that a sentence to probation was “very unlikely,” so that “[Mr. Carbutt] would then have known,
prior to finalizing his plea of guilty, that he would probably die in prison. . . .” Motion to Withdraw Plea, at
¶ 37. Mr. Carbutt explains that a sentence to probation
was very unlikely “given the numerous original
charges and the content of the affidavit in Support of
the Arrest Warrant. . . .” Id. The Court disagrees.
The Court was only required to determine that Mr.
Carbutt understood the “possible” penalties and any

App. 99
“consequences which have a definite, immediate, and
automatic effect on the range of his punishment.” People v. Chippewa, 713 P.2d 1311, 1313 (Colo. App. 1985),
aff ’d, 751 P.2d 607 (Colo. 1988) (emphasis added). But,
the Court is not required to advise defendants of the
probability of his receiving one sentence or another.
See Lewis v. United States, 601 F.2d 1100, 1101 (9th
Cir. 1979) (“[Federal] Rule 11 does not require that the
court inform the defendant of the probability of his receiving one sentence or another. Indeed, it is improper
to do so.”). Here, the Court had advised Mr. Carbutt
that “[he] could be incarcerated for the remainder of
[his] natural life.” Hearing Tr. 6:25 to 7:2 (Oct. 16,
2015). But, incarceration was not “a definite, immediate, and automatic” consequence of the original
charges or the affidavit’s contents. Therefore, the Court
fulfilled its obligation under Rule 11 by explaining that
such incarceration was a possible penalty.
Mr. Carbutt asks for a hearing, so that he can testify that, among other things:
. . . he believed, based upon the totality of the
circumstances attendant to his plea of guilty,
that he could not receive a sentence greater
than six years to life. This is based upon his
reasonable understanding that the Class 4
felony to which he was pleading guilty carried
with it a range of penalties of 2-6 years up to
life in prison.
Addendum, ¶ 2. Mr. Carbutt notes that the Court only
repeated the presumptive range in its final advisement
before accepting the guilty plea, and, at that time, the

App. 100
Court did not advise Mr. Carbutt of the aggravated
range. See Hearing Tr. 15:8-22 (Oct. 16, 2015). But, the
Court had advised Mr. Carbutt that a Class 4 Felony
would normally expose a defendant to a sentence of “up
to 12 years if the Court found exceptional circumstances. . . .” Id. at 5:18-19. And, the potential 12-year
sentence is reflected in the Rule 11 form, at paragraph
14(h). Therefore, even if Mr. Carbutt believed that he
could not receive a sentence greater than six years to
life, the record as a whole shows that he was given sufficient information as to fairly be put on notice of the
potential for a 12-year minimum.
Because the record clearly establishes that Mr.
Carbutt’s claims concerning the Rule 11 advisement
are without merit, the Court denies these claims and
denies the request for an evidentiary hearing on them.
See White v. District Court, 766 P.2d 632 (Colo. 1988).
The Court, therefore, turns [sic] Mr. Carbutt’s arguments about his sentence.
II.

SENTENCING

Mr. Carbutt argues that the Court erred in imposing a sentence of fifteen years to life. In particular, he
argues that the Court erred in imposing a minimum
term of fifteen years – which is outside of the presumptive range of two to six years. He argues that (A) this
sentence violates his constitutional rights under Apprendi and Blakely; (B) an aggravated sentence cannot
be justified by extraordinary aggravating factors
other than those listed in section 18-1.3-401(8)(a) in a

App. 101
sex-offense case, like this; (C) this aggravated sentence
was foreclosed by the Court’s findings at the providency hearing; (D) this aggravated sentence was not
supported by the necessary, specific findings of extraordinary aggravating circumstances; and (E) the sentence is inconsistent with the sentencing scheme. The
Court mostly disagrees. In summary, the record establishes that the Court properly imposed a lower term
greater than six years, but the Court concludes that
the applicable statutes did not permit the Court to impose a sentence of more than 12 years. The Court,
therefore, corrects Mr. Carbutt’s sentence by lowering
it to 12 years and otherwise denies his claims without
a hearing.
A. Constitutional Rights under Apprendi
and Blakely
Mr. Carbutt contends that the Court could not
have imposed a minimum sentence greater than six
years without violating Apprendi and Blakely. The
Court disagrees.
Under Apprendi and Blakely, a sentencing court
cannot rely on facts to increase the maximum penalty
or the mandatory minimum penalty unless the facts
are Blakely-exempt or Blakely-compliant. A fact is
“Blakely-exempt” if it is a prior conviction. Lopez v.
People, 113 P.3d 713, 723 (Colo. 2005). A fact is
“Blakely-compliant” if the jury found the fact beyond a
reasonable doubt, if the defendant admitted to the fact,
or if the defendant stipulated to judicial fact-finding for

App. 102
sentencing purposes. Id.; see generally Alleyne v.
United States, 133 S. Ct. 2151, 2155, 186 L. Ed. 2d 314
(2013) (extending Apprendi and Blakely to “any fact
that increases the mandatory minimum”).
In his Rule 11 form, Mr. Carbutt agreed that
“there exist facts or circumstances surrounding the off
ense[ ] I committed which are extraordinarily aggravating . . . .” Rule 11, ¶ 14(a). Mr. Carbutt, then, expressly agreed to waive his right to a jury trial as to
these facts. Id. He also agreed to “let the Judge, in the
Judge’s discretion, decide all such facts and decide
whether or not extraordinary aggravating circumstances are present in my case and whether or not to
impose a sentence above the top of the presumptive
range.” Rule 11, ¶ 14(b). He, again, waived his right to
have the jury decide these facts. Id.
At sentencing, the Court found that the facts and
circumstances of this case were “egregious.” Hearing
Tr. 23:22 to 24:5, 27:23 to 28:2 (Dec. 18, 2015). The
Court explained the basis of this finding: “ . . . I want
everyone to be crystal clear, these are not allegations
made by the children. These are admissions made by
Mr. Carbutt. These are the things that he’s admitted to
doing to these children. So, again, when I impose a sentence, you understand why I have imposed the sentence that I’m going to impose.” Hearing Tr. 28:3-7
(Dec. 18, 2015). The Court, then, recited Mr. Carbutt’s
admissions to having sexual contact with six different
children. These admissions are derived from the
Presentence Investigation Report. Compare Tr. 28:3 to

App. 103
29:4 (Dec. 18, 2015) with Polygraph Examination, at 2
(attached to PSIR).
The Court concludes that its findings were
Blakely-compliant because Mr. Carbutt expressly
agreed that there were extraordinarily aggravating
facts and circumstances, and because Mr. Carbutt
agreed to let the Court find extraordinarily aggravating facts and circumstances. Furthermore, the Court’s
fact finding at sentencing is not governed by the Rules
of Evidence, see CRE 1101(d)(3), and, so, the Court
could rely on Mr. Carbutt’s admissions, which are contained in the PSIR. Mr. Carbutt’s arguments to the
contrary are clearly contradicted by the Rule 11 form,
and he is not entitled to an evidentiary hearing on
these arguments. See Fernandez, 53 P.3d at 775.
B. Non-statutory Extraordinary Aggravating Circumstances
Mr. Carbutt contends that there were no permissible aggravators in this case, because the Court did not
find any of the “extraordinary aggravating circumstances” listed in section 18-1.3-401(8)(a) were present
in this case, and because section 18-1.3-401(8)(c) does
not permit the Court to rely on unlisted aggravating
circumstances in sex offense cases. Because the Court
agrees that it did not find any of the “extraordinary aggravating circumstances” listed in section 18-1.3401(8)(a), the Court turns to section 18-1.3-401(8)(c).

App. 104
On this point, Mr. Carbutt argues as follows:
[T]he language of C.R.S. 18-1.3-401(8)(c) does
not apply to sex offenses where the maxi mum
possible penalty is ‘life,’ because it only authorizes a Court to impose a sentence in excess of the presumptive range. The language
of this subsection does not authorize an increase of the low end of the sentencing range,
as occurred in this case.
Motion to Withdraw Plea of Guilty, at 1123. In making
this argument, Mr. Carbutt concedes that “in most
cases the Court has authority to identify non-statutory
aggravators pursuant to 18-1.3-401(8)(c).” Id. at 1124.
To address Mr. Carbutt’s argument, the Court
must explain how section 18-1.3-401(8)(c) relates to
Colorado’s Sex Offender Lifetime Supervision Act (or
“Act”). Under the Act, a trial court must sentence a sex
offender to “an indeterminate term of at least the
minimum of the presumptive range specified in section
18-1.3-401 for the level of offense committed and a
maximum of the sex offender’s natural life.” C.R.S. § 181.3-1004(1)(a). Thus, on the one hand, the maximum
term is the sex offender’s natural life. On the other
hand, “the lower term of a sex offender’s indeterminate
sentence must be fixed according to the provisions of
the determinate sentencing scheme of section 18-1.3401.” Vensor v. People, 151 P.3d 1274, 1280 (Colo. 2007).
For the lower term, the Act “incorporates” the sentencing scheme found in section 18-1.3-401, and the lower
term must be determined “in the same manner” as determinate sentences under section 18-1.3-401. Vensor,

App. 105
151 P.3d at 1278. The “manner” include both “the extent to which a sentence may deviate from [the presumptive] range” and “the circumstances under which
a deviation from the presumptive range may occur.”
Vensor, 151 P.3d at 1279.
Thus, the Act incorporates the sentencing scheme
found in section 18-1.3-401, including the provisions of
section 18-1.3-401(8). Section 18-1.3-401(8)(a) lists
several extraordinary aggravating circumstances. Section 18-1.3-401(8)(c) provides: “Nothing in this subsection (8) shall preclude the court from considering
aggravating circumstances other than those stated in
paragraph (a) of this subsection (8) as the basis for sentencing the defendant to a term greater than the presumptive range for the felony.” (emphasis added). Thus,
section 18-1.3-401(8)(c) specifies the circumstances under which a deviation from the presumptive range may
occur – in other words, it provides the “manner” for imposing an aggravated determinate sentence.
Because section 18-1.3-401(8)(c) provides the
“manner” for imposing an aggravated determinate
sentence, the Court concludes that the Act incorporates this provision for the purpose [sic] determining
the lower term. The Court further concludes that this
provision allows it to rely on unlisted aggravators
when imposing a lower term in excess of the presumptive range.
Contrary to Mr. Carbutt’s argument, the Court is
not persuaded that the phrase “greater than the presumptive range” bars its use in determining the lower

App. 106
term. Mr. Carbutt’s argument is contrary to the reasoning in Vensor. There, the Colorado Supreme Court
concluded that section 18-1.3-401(6) applied to determination of the lower term, and that provision also refers to terms “greater than the presumptive range.”
Following Vensor [sic], the Court rejects Mr. Carbutt’s
argument as a matter of law. Furthermore, because
this argument only raises an issue of law, the Court
rejects it without a hearing. See Venzor, 121 P.3d at
262; Fernandez, 53 P.3d at 775.

C. The Providency Hearing
Mr. Carbutt also argues that, at the providency
hearing, the Court determined that there were no extraordinary aggravating circumstances. In support of
this argument, Mr. Carbutt quotes the Court as saying
“I’ll note that we’ve already made the determination
that there’s not extraordinary circumstances in this
case” Hearing Tr. 18:22-24 (Oct. 16, 2015). But, in saying this, the Court misspoke, as is clear when the statement is placed in context:
[DEFENSE ATT’Y]: And, Your Honor, I want to
thank the Court for helping me in this advisement
form, but I’d also ask the
Court, if the Court would
strike 14(b) and 14(e). My
client did initial them,
and those are the extraordinary risk sections. If
the Court could strike

App. 107
through those, perhaps
make a notation.
THE COURT:

I’m not going to strike
through it. I’ll note that
we’ve already made the
determination that there’s
not extraordinary circumstances in this case.

[DEFENSE ATT’Y]: Thank you, Your Honor. I
just want to make certain
that I get that covered. I
apologize to the Court
for incorrectly numbering
those.
THE COURT:

I guess I should say, the
Court notes it’s not an extraordinary risk crime, is
what I should say.

[DEFENSE ATT’Y]: Right. Thank you
much, Your Honor.

so

Hearing Tr. 18:17 to 19:5 (Oct. 16, 2015) (emphasis
added). Although the Court misspoke on this occasion,
the Court corrected itself and, at other times, stated
that the Defendant was not pleading guilty to an “extraordinary risk crime.” See Hearing Tr. 4:18-24, 15:810 (Oct. 16, 2015). In contrast, the Court had advised
Mr. Carbutt that the presumptive range would go “up
to 12 years if the Court found exceptional circumstances. . . .” Id. at 5:18-19. And, the Rule 11 form
properly distinguished between an “extraordinary risk

App. 108
crime” and “aggravated circumstances.” See Rule 11, at
¶ 14(h).
Considering the Court’s remarks in context, the
Court consistently maintained that Mr. Carbutt was
not pleading guilty to an extraordinary risk crime, as
defined by section 18-1.3-401(10), but reserved the
question of whether there were extraordinary aggravating circumstances, as described by section 18-1.3401(6), (8). Therefore, the Court concludes that the
record clearly establishes that, at the providency hearing, it did not foreclose its later determination that
there were extraordinary aggravating circumstances,
and a hearing is not necessary to resolve this issue. See
Fernandez, 53 P.3d at 775; Flagg, 18 P.3d at 795.
D. Specific findings of Extraordinary Aggravating Circumstances
Mr. Carbutt argues that the Court was required to
make specific findings as required by section 18-1.3401(7). See Fiske, 194 P.3d at 497. Contrary to Mr. Carbutt’s argument, the Court expressly found that the
facts and circumstances of this case were “egregious”
and merit a “harsher punishment.” Hearing Tr. 23:22
to 24:5, 27:23 to 28:2 (Dec. 18, 2015). In making this
finding, the Court made it “clear” that the extraordinary aggravating circumstances were Mr. Carbutt’s
sexual contacts with six different children. Hearing Tr.
28:3 to 29:4 (Dec. 18, 2015). Based on these findings,
the Court concludes that the record clearly establishes
that a hearing is not necessary and that Mr. Carbutt is

App. 109
not entitled to relief under this claim. See Fernandez,
53 P.3d at 775; Flagg, 18 P.3d at 795.
E. The Statutory Scheme
Mr. Carbutt argues that the fifteen-year sentence
was illegal, because the lower term could not have been
greater than six years, the maximum sentence in the
presumptive range for a class four felony. The Court
agrees in part.
The court must sentence sex offenders to a minimum term within the presumptive range for [sic] specified in section 18-1.3-401, unless the court finds
extraordinary aggravating circumstances. C.R.S. § 181.3-1004(1)(a); People v. Fritts, 2014 COA 103, ¶ 3. If
the court finds extraordinary aggravating circumstances, the court may impose a lower term of up to
twice the maximum authorized in the presumptive
range for the punishment of the offense. C.R.S. § 181.3-401(6); see Vensor, 151 P.3d at 1280. When the offense is a class four felony, the presumptive range is
two to six years and, if the court finds extraordinary
aggravating circumstances, then the court could impose a minimum term of up to 12 years. See C.R.S. § 181.3-401(1)(a)(V)(A), (6).
The Court concludes that, under the applicable
statutory scheme, the Court could only impose a sentence of up to 12 years. This conclusion is consistent
with the Court’s Rule 11 advisement, in which the
Court repeated the presumptive range of two to six
years. See Hearing Tr. 6:13-17, 7:13-16, 15:8-15 (Oct.

App. 110
16, 2015). The Court, therefore, agrees that the fifteenyear term is inconsistent with the statutory scheme
and reduces the sentence to twelve years.
Yet Mr. Carbutt argues that the Court cannot impose a lower term greater than six years. The Court
disagrees because the lower term can be as high as
twelve years when the Court finds extraordinary aggravating circumstances. The Court, therefore, rejects
this argument as a matter of law, and Mr. Carbutt is
not entitled to an evidentiary hearing on it.
IT IS THEREFORE ORDERED THAT the sentence is changed from 15 year [sic] to life, to 12 years
to life.
IT IS FURTHER ORDERED THAT the Defendant’s Motion to Withdraw Plea of Guilty Pursuant to
Rule 35(a) (or the “Motion”), filed April 15, 2016, and
his Addendum, filed April 27, 2015, are DENIED.
Done this June 13, 2016.
By the Court:
________________________________
Michael Gonzales, District Judge

App. 111
Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED:

Certiorari to the Court of
Appeals, 2016CA1250
District Court, Conejos
County, 2015CR49

2019SC113

Petitioner:

Supreme Court Case No:
2019SC113

Oliver Ray Carbutt,

September 9, 2019
CASE NUMBER:

v.
Respondent:
The People of the State
of Colorado.
ORDER OF COURT
Upon consideration of the Petition for Writ of Certiorari to the Colorado Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the same hereby is, DENIED.
BY THE COURT, EN BANC, SEPTEMBER 9,
2019.

